               REGU
           EAR     LA
         CL          T




   NU




                        OR
STATES




                          YC
                         OMMI S
 ED




                         SI
    IT




                         O
                    N
         UN




The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility
employees, contractors and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be
reported. We do not attempt to identify persons contacting the Hotline.

What should be reported:
• Contract and Procurement Irregularities        • Abuse of Authority
• Conflicts of Interest                          • Misuse of Government Credit Card
• Theft and Misuse of Property                   • Time and Attendance Abuse
• Travel Fraud                                   • Misuse of Information Technology Resources
• Misconduct                                     • Program Mismanagement


Ways to Contact the OIG
                                  Call:
                                  OIG Hotline
                                  1-800-233-3497
                                  TDD: 1-800-270-2787
                                  7:00 a.m. – 4:00 p.m. (EST)
                                  After hours, please leave a message


                                  Submit:
                                  On-Line Form
                                  www.nrc.gov
                                  Click on Inspector General
                                  Click on OIG Hotline
                                                                                                Semiannual Report to Congress
                                                                                                April 1, 2009-September 30, 2009
                                  Write:
                                  U.S. Nuclear Regulatory Commission
                                  Office of the Inspector General
                                  Hotline Program, MS O5 E13
                                  11555 Rockville Pike
                                  Rockville, MD 20852-2738


NUREG-1415, Vol. 22, No. 1
September 2009
OIG VISION                                                               NRC OIG’s STRATEGIC GOALS
“We are agents of positive change striving for continuous                1. S
                                                                             trengthen NRC’s efforts to protect public health and safety
improvement in our agency’s management and program operations.”             and the environment.
                                                                         2. E nhance NRC’s efforts to increase security in response to an
                                                                            evolving threat environment.
NRC-OIG MISSION
                                                                         3. I ncrease the economy, efficiency, and effectiveness with
NRC-OIG’s mission is to (1) independently and objectively conduct           which NRC manages and exercises stewardship over its
and supervise audits and investigations relating to NRC’s programs and      resources.
operations; (2) prevent and detect fraud, waste, and abuse,
and (3) promote economy, efficiency, and effectiveness in NRC’s
programs and operations.




Cover photos (clockwise from top left): Reactor fuel assembly unit,
Prairie Island nuclear power plant near Red Wing, MN (photo courtesy
of Nuclear Management Co.), nuclear turbine, and control room at a
nuclear power plant.
A Message From The
Inspector General
I am pleased to present this Semiannual Report to Congress on the
activities and accomplishments of the Nuclear Regulatory Commission
(NRC) Office of the Inspector General (OIG) from April 1, 2009, to
September 30, 2009.

Our work reflects the legislative mandate of the Inspector General Act,
which is to identify and prevent fraud, waste, and abuse through the
conduct of audits and investigations relating to NRC programs and
operations. The audits and investigations highlighted in this report
demonstrate our commitment to ensuring integrity and efficiency in
NRC’s programs and operations.

During this semiannual reporting period, we issued 12 program audit reports and 2 contract
audit reports. As a result of this work, OIG made a number of recommendations to improve the
effectiveness and efficiency of NRC’s safety, security, and corporate management programs. OIG
also opened 28 investigations, and completed 26 cases. Nine of the opened cases were referred to
the Department of Justice, and 21 allegations were referred to NRC management for action.

My office is dedicated to maintaining the highest possible standards of professionalism and
quality in its audits and investigations. I would like to acknowledge our auditors, investigators,
and support staff for their superior work and commitment to the mission of our office.

Finally, the success of the NRC OIG would not be possible without the collaborative work
between my staff and agency managers to address OIG findings and implement the recommenda-
tions made by my office. I thank them for their dedication and support and look forward to their
continued cooperation as we work together to ensure the integrity of agency operations.



Hubert T. Bell
Inspector General




                                                               April 1, 2009 – September 30, 2009 i
ii NRC OIG Semiannual Report to Congress
Contents
  Highlights  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  v
  Overview of the NRC and the OIG  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  1
  	     NRC’s Mission  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
  	     OIG History, Mission, and Goals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  2
  		          Inspector General History .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  2
  		          OIG Mission and Goals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3
  OIG Programs and Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4
  	     Audit Program  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4
  	     Investigative Program  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
  	     General Counsel Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
  		          Regulatory Review  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  6
  	     Other Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  8
  		          Training Support for the Inspector General Community  .  .  .  .  .  .  .  . 8
  		          Management and Performance Challenges .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9
  Audits 	 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 10
  	     Audit Summaries .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 10
  	     Audits in Progress  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 26
  Investigations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33
  	     Investigative Case Summaries .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33
  Summary of OIG Accomplishments .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 40
  	     Investigative Statistics  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 40
  	     Audit Listings .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 42
  Audit Resolution Activities  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 44
  Abbreviations and Acronyms  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 47
  Reporting Requirements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 48




                                                                                     April 1, 2009 – September 30, 2009 iii
iv NRC OIG Semiannual Report to Congress
Highlights
The following two sections highlight selected audits and investigations completed
during this reporting period. More detailed summaries appear in subsequent
sections of this report.

AUDITS
• 	 NRC conducts Force-on-Force inspections at each of the Nation’s nuclear
    power plants on at least a triennial basis in accordance with the 2005
    Energy Policy Act. A Force-on-Force inspection is a performance-based
    inspection designed to assess the ability of licensees’ security organizations
    to protect their facilities against sabotage. Teams of headquarters-based
    inspectors and security risk analysts conduct inspections with support
    from physical security inspectors based in NRC’s four regional offices.
    U.S. military personnel serve as technical advisors to the NRC teams and
    assist with some inspection tasks. NRC began the second triennial Force-
    on-Force inspection cycle in January 2008 and planned to conduct 25
    Force-on-Force inspections during FY 2009. The audit objective was to
    evaluate NRC’s Force-on-Force inspection program to determine if design
    and implementation of the program are thorough, consistent, and in accor-
    dance with NRC standards.

• 	 In recent years, there has been renewed worldwide interest in constructing
    nuclear facilities. In 2006, NRC reorganized in response to the anticipated
    new reactor licensing and construction inspection workload. The Office
    of New Reactors (NRO) was created in headquarters with the primary
    responsibility for developing the Construction Inspection Program
    (CIP) and its associated program guidance. The CIP was designed to
    ensure that plants are built in accordance with the approved design and
    licensing requirements and will operate in compliance with NRC regula-
    tions. The agency continues to revise the CIP. In March 2009, NRO issued
    NRO-REG-112, New Reactor Construction Experience Program, to better
    inform the CIP. NRO-REG-112 provides guidance for a new construction
    lessons learned process that is informed by domestic and international
    experiences, past lessons learned, and construction inspection activities.
    The audit objective was to determine if and how NRC is identifying and
    incorporating lessons learned in its new CIP.

• 	 NRC is authorized to grant licenses for the possession and use of special
    nuclear material (SNM) and establish regulations to govern the posses-
    sion and use of such material. SNM is used for such purposes as (1) fuel




                                                               April 1, 2009 – September 30, 2009 v
                   for nuclear reactors; (2) industrial, academic, and medical applications;
                   and (3) the manufacture of industrial gauging devices. NRC’s regulations
                   require that SNM license holders have material control and accounting
                   (MC&A) systems to protect against the loss or misuse of SNM. Licensees
                   must allow NRC to inspect the materials, controls, and premises where
                   SNM is used or stored. The primary goal of the NRC MC&A inspection
                   program at fuel cycle facilities is to ensure that licensee systems adequately
                   detect and protect against the loss, theft, or diversion of SNM in the
                   licensee’s possession. The audit objective was to assess the effectiveness
                   of NRC’s MC&A inspection program over the accounting and control of
                   SNM at Category I fuel cycle facilities.

                • 	 The Reports Consolidation Act of 2000 requires the Inspector General (IG)
                    of each Federal agency to annually summarize what he or she considers to
                    be the most serious management and performance challenges facing the
                    agency and to assess the agency’s progress in addressing those challenges.
                    In accordance with the act, the IG at NRC updated what he considers to
                    be the most serious management and performance challenges facing NRC.
                    As part of the evaluation, OIG staff sought input from NRC’s Chairman,
                    Commissioners, and management to obtain their views on what challenges
                    the agency is facing and what efforts the agency has taken to address previ-
                    ously identified management challenges.

                • 	 A grant is a legal instrument for transferring money, property, or services
                    to a recipient to support programs with a public purpose that the Govern-
                    ment wishes to encourage. Grants differ significantly from contracts,
                    which are used to acquire supplies or services for the direct benefit or use
                    of the Government. While contracts are associated with specific types of
                    oversight, requirements for grants oversight are less prescriptive. NRC’s
                    grant program has grown more than 36-fold since Fiscal Year (FY) 2005 in
                    response to legislation authorizing the agency to increase its nuclear educa-
                    tion grants to universities for course and curricula development, fellow-
                    ships, scholarships, and faculty development. The audit objective was to
                    determine whether NRC has established and implemented an effective
                    system of internal controls for grants management.

                • 	 On December 17, 2002, the President signed the E-Government Act of
                    2002, which included the Federal Information Security Management Act
                    (FISMA) of 2002. FISMA outlines the information security manage-
                    ment requirements for agencies, which include an annual independent
                    evaluation of an agency’s information security program and practices to



vi NRC OIG Semiannual Report to Congress
   determine their effectiveness. This evaluation must include testing the
   effectiveness of information security policies, procedures, and practices
   for a representative subset of the agency’s information systems. OIG
   conducted FISMA evaluations of NRC’s four regional offices and Tech-
   nical Training Center. The evaluation objectives were to (1) evaluate
   the adequacy of NRC’s information security program and practices for
   NRC automated information systems as implemented, (2) evaluate the
   effectiveness of agency information security control techniques as imple-
   mented, and (3) evaluate corrective actions planned and taken as a result of
   previous OIG evaluations.

• 	 NRC’s enforcement program is directed by the Office of Enforcement in
    headquarters, but is implemented primarily in the regional offices, where
    staff conduct inspections and investigations of licensees to identify viola-
    tions and assess their significance so that appropriate enforcement actions
    can be determined. In three of NRC’s four regional offices, a dedicated
    enforcement staff supervisor oversees the work of the regional enforcement
    staff and another individual serves as the region’s attorney, or Regional
    Counsel. In the remaining region, however, the Regional Counsel serves
    both as the region’s attorney and as the enforcement staff supervisor. A
    recent OIG audit found that differences in the ways the regional offices
    implement the enforcement program can significantly impact the enforce-
    ment process, leaving enforcement decisions vulnerable to challenge
    and potentially compromising public confidence in NRC’s enforcement
    program. The audit objective was to determine whether combining
    the roles of regional counsel and enforcement supervisor is a workable
    approach for regional enforcement programs.

• 	 During FY 2009, OIG engaged an independent contractor to assess NRC’s
    safety culture and climate as well as other aspects of employee experience
    such as employee engagement. This was the fourth time that OIG has facili-
    tated such an assessment. For purposes of this study, safety culture refers
    to the complex sum (or whole) of the mission, characteristics, and policies
    of an organization, and the thoughts and actions of its individual members,
    which establish and support nuclear safety and security as overriding priori-
    ties. Climate refers to the current work environment of the agency. A better
    understanding of NRC’s safety culture and climate will facilitate identifi-
    cation of agency strengths and opportunities for improvement. Agency
    program and support offices can use this information to develop action
    plans, as warranted. In addition, the OIG plans to use the survey results in
    connection with risk assessments to facilitate annual audit planning.



                                                             April 1, 2009 – September 30, 2009 vii
                INVESTIGATIONS
                • 	 OIG conducted an investigation involving NRC’s process for reviewing
                    security related allegations in the four NRC regional offices. Specifically,
                    OIG examined security related allegations that were reported to NRC
                    Regions I, II, III, and IV from October 2004 through August 2007 and
                    interviewed staff members involved in the allegation process.

                • 	 OIG conducted an investigation into an allegation that NRC manipulated
                    the agency’s Reactor Oversight Process (ROP).1 The allegation specifi-
                    cally referred to the way in which NRC processed an issue for Kewaunee
                    Nuclear Power Plant (Kewaunee) that prevented moving the plant from
                    Column 3 to Column 4 of the ROP’s action matrix, allegedly because NRC
                    lacked or did not want to devote the additional resources to complete addi-
                    tional inspections.

                • 	 OIG conducted an investigation into an allegation that an NRC contractor
                    overbilled the agency for a contract deliverable. OIG reviewed the contract
                    and learned that it was for review of a license application. The contract
                    was a 5-year cost-reimbursement plus fixed fee, indefinite quantity, task
                    ordering contract that contained numerous task orders, some of which
                    contained subtask orders.

                • 	 OIG completed an investigation into an allegation that NRC afforded the
                    Nuclear Energy Institute an exclusive opportunity to comment on and edit
                    two NRC regulatory issue summaries (RIS), and that the draft RISs were
                    not published in the Federal Register or made available on NRC’s Docu-
                    ments for Comment Web page.

                • 	 OIG conducted an investigation into an allegation that a former NRC
                    Commissioner’s post-NRC employment with a nuclear industry vendor
                    constituted a conflict of interest.




                1
                     e NRC ROP is a procedural framework that provides a means by which licensee performance is
                    Th
                    evaluated and measured and a means by which NRC determines the level of oversight for each reactor.
                    A key element of the ROP is the action matrix from which appropriate regulatory response, licensee
                    actions, and communications are determined based on a composite measure of licensee performance.




viii NRC OIG Semiannual Report to Congress
Overview Of The NRC and the OIG
NRC’S MISSION
NRC was formed in 1975, in accordance with the Energy Reorganization Act
of 1974, to regulate the various commercial and institutional uses of nuclear
materials. The agency succeeded the Atomic Energy Commission, which
previously had responsibility for both developing and regulating nuclear activi-
ties.

NRC’s mission is to regulate the Nation’s civilian use of byproduct, source,
and special nuclear materials to ensure adequate
protection of public health and safety, promote the
common defense and security, and protect the envi-
ronment. NRC’s regulatory mission covers three
main areas:

• 	 Reactors - Commercial reactors that generate
    electric power and research and test reactors
    used for research, testing, and training.

• 	 Materials - Uses of nuclear materials in medical,
    industrial, and academic settings and facilities
    that produce nuclear fuel.

• 	 Waste - Transportation, storage, and disposal of nuclear materials and waste,
    and decommissioning of nuclear facilities from service.

Under its responsibility to protect public health and safety, NRC has three
principal regulatory functions: (1) establish standards and regulations, (2)
issue licenses for nuclear facilities and users of nuclear materials, and (3)
inspect facilities and users of nuclear materials to ensure compliance with the
requirements. These regulatory functions relate both to nuclear power plants
and other uses of nuclear materials – like nuclear medicine programs at hospi-
tals, academic activities at educational institutions, research, and such indus-
trial applications as gauges and testing equipment.

The NRC maintains a current Web site and a public document room in Rock-
ville, Maryland (NRC headquarters), and holds public hearings, public meet-
ings in local areas and at NRC offices, and discussions with individuals and
organizations.




                                                               April 1, 2009 – September 30, 2009 1
                     OIG HISTORY, MISSION, AND GOALS
                     Inspector General History
                     In the 1970s, Government scandals, oil shortages, and stories of corrup-
                     tion covered by newspapers, television, and radio stations took a toll on the
                     American public’s faith in its Government. The U.S. Congress knew it had to
                     take action to restore the public’s trust. It had to increase oversight of Federal
                     programs and operations. It had to create a mechanism to evaluate the effec-
                                                              tiveness of Government programs. And,
                                                              it had to provide an independent voice
                                                              for economy, efficiency, and effectiveness
                                                              within the Federal Government that
                                                              would earn and maintain the trust of the
                                                              American people.

                                                               In response, Congress passed the land-
                                                               mark legislation known as the Inspector
                                                               General Act (IG Act), which Presi-
                                                               dent Jimmy Carter signed into law in
                                                               1978. The IG Act created independent
Inspector General Hubert T. Bell presents a plaque to          Inspectors General, who would protect
departing Commissioner Peter B. Lyons in appreciation          the integrity of Government; improve
of his support to the mission of the Office of the Inspector   program efficiency and effectiveness;
General. Pictured from left to right are David C. Lee,         prevent and detect fraud, waste, and
Deputy Inspector General; Hubert T. Bell; Peter B. Lyons;      abuse in Federal agencies; and keep
Stephen D. Dingbaum, Assistant Inspector General for           agency heads, Congress, and the Amer-
Audits; and Maryann L. Grodin, General Counsel to the          ican people fully and currently informed
Inspector General.                                             of the findings of IG work.

                     Today, the IG concept is a proven success. The IGs continue to deliver signifi-
                     cant benefits to our Nation. Thanks to IG audits and inspections, billions of
                     dollars have been returned to the Federal Government or have been better
                     spent based on recommendations identified through those audits and inspec-
                     tions. IG investigations have also contributed to the prosecution of thousands
                     of wrongdoers. In addition, the IG concept of good governance, account-
                     ability, and monetary recoveries encourages foreign governments to seek
                     advice from Inspectors General with the goal of replicating the basic IG prin-
                     ciples in their own governments.




2 NRC OIG Semiannual Report to Congress
OIG Mission and Goals
NRC’s OIG was established as a statutory entity on April 15, 1989, in accor-
dance with the 1988 amendment to the IG Act. NRC OIG’s mission is to (1)
independently and objectively conduct and supervise audits and investigations
relating to NRC programs and operations; (2) prevent and detect fraud, waste,
and abuse; and (3) promote economy, efficiency, and effectiveness in NRC
programs and operations.

OIG is committed to ensuring the integrity of NRC programs and operations.
Developing an effective planning strategy is a critical aspect of accomplishing
this commitment. Such planning ensures that audit and investigative resources
are used effectively. To that end, OIG developed a Strategic Plan2 that includes
the major challenges and critical risk areas facing NRC.

The plan identifies the priorities of OIG and establishes a shared set of expecta-
tions regarding the goals OIG expects to achieve and the strategies that will be
employed to do so. OIG’s Strategic Plan features three goals, which generally
align with NRC’s mission and goals:

1.	 Strengthen NRC’s efforts to protect public health and safety and the
    environment.

2.	 Enhance NRC’s efforts to increase security in response to an evolving
    threat environment.

3.	 Increase the economy, efficiency, and effectiveness with which NRC
    manages and exercises stewardship over its resources.




2
    OIG’s current Strategic Plan covers the period FY 2008 through FY 2013.




                                                                              April 1, 2009 – September 30, 2009 3
OIG Programs and Activities
                Audit Program
                The OIG Audit Program focuses on management and financial operations;
                economy or efficiency with which an organization, program, or function is
                managed; and whether the programs achieve intended results. OIG auditors
                assess the degree to which an organization complies with laws, regulations, and
                internal policies in carrying out programs, and they test program effective-
                ness as well as the accuracy and reliability of financial statements. The overall
                objective of an audit is to identify ways to enhance agency operations and
                promote greater economy and efficiency. Audits comprise four phases:

                • 	 Survey phase–An initial phase of the audit process is used to gather
                    information, without detailed verification, on the agency’s organization,
                    programs, activities, and functions. An assessment of vulnerable areas
                    determines whether further review is needed.

                • 	 Verification phase–Detailed information is obtained to verify findings and
                    support conclusions and recommendations.

                • 	 Reporting phase–The auditors present the information, findings, conclu-
                    sions, and recommendations that are supported by the evidence gath-
                    ered during the survey and verification phases. Exit conferences are held
                    with management officials to obtain their views on issues in the draft
                    audit report. Comments from the exit conferences are presented in the
                    published audit report, as appropriate. Formal written comments are
                    included in their entirety as an appendix in the published audit report.

                • 	 Resolution phase–Positive change results from the resolution process
                    in which management takes action to improve operations based on the
                    recommendations in the published audit report. Management actions
                    are monitored until final action is taken on all recommendations. When
                    management and OIG cannot agree on the actions needed to correct a
                    problem identified in an audit report, the issue can be taken to the NRC
                    Chairman for resolution.

                Each September, OIG issues an Annual Plan that summarizes the audits
                planned for the coming fiscal year. Unanticipated high priority issues may
                arise that generate audits not listed in the Annual Plan. OIG audit staff contin-
                ually monitor specific issues areas to strengthen OIG’s internal coordination
                and overall planning process. Under the OIG Issue Area Monitor (IAM)
                program, staff designated as IAMs are assigned responsibility for keeping
                abreast of major agency programs and activities. The broad IAM areas address


4 NRC OIG Semiannual Report to Congress
nuclear reactors, nuclear materials, nuclear waste, international programs,
security, information management, and financial management and administra-
tive programs.



INVESTIGATIVE PROGRAM
OIG’s responsibility for detecting and preventing fraud, waste, and abuse
within NRC includes investigating possible violations of criminal statutes
relating to NRC programs and activities, investigating misconduct by NRC
employees, interfacing with the Department of Justice on OIG-related crim-
inal matters, and coordinating investigations and other OIG initiatives with
Federal, State, and local investigative agencies and other OIGs. Investigations
may be initiated as a result of allegations or referrals from private citizens;
licensee employees; NRC employees; Congress; other Federal, State, and local
law enforcement agencies; OIG audits; the OIG Hotline; and IG initiatives
directed at areas bearing a high potential for fraud, waste, and abuse.

Because NRC’s mission is to protect the health and safety of the public, the
Investigation unit directs much of its resources and attention on investigations
of alleged conduct by NRC staff that could adversely impact matters related to
health and safety. These investigations may address allegations of:

• 	Misconduct by high ranking NRC officials and other NRC officials, such
    as managers and inspectors, whose positions directly impact public health
    and safety.

• 	Failure by NRC management to ensure that health and safety matters are
    appropriately addressed.

• 	 Failure by NRC to appropriately transact nuclear regulation publicly and
    candidly and to openly seek and consider the public’s input during the
    regulatory process.

• 	 Conflicts of interest involving NRC employees and NRC contractors and
    licensees, including such matters as promises of future employment for
    favorable or inappropriate treatment and the acceptance of gratuities.

• 	 Fraud in the NRC procurement program involving contractors violating
    Government contracting laws and rules.




                                                              April 1, 2009 – September 30, 2009 5
                OIG has also implemented a series of proactive initiatives designed to identify
                specific high-risk areas that are most vulnerable to fraud, waste, and abuse. A
                primary focus is electronic-related fraud in the business environment. OIG
                is committed to improving the security of the constantly changing electronic
                business environment by investigating unauthorized intrusions and computer-
                related fraud, and by conducting computer forensic examinations. Other
                proactive initiatives focus on determining instances of procurement fraud, theft
                of property, Government credit card abuse, and fraud in Federal programs.



                GENERAL COUNSEL ACTIVITIES
                Regulatory Review
                Pursuant to the Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2), OIG
                reviews existing and proposed legislation, regulations, policy, and new and
                revised Management Directives (MD), and makes recommendations to the
                agency concerning their impact on the economy and efficiency of agency
                programs and operations.

                OIG comments derived from its regulatory review activities are an objective
                analysis of the language of proposed agency statutes, directives, regulations,
                and policies that identify vulnerabilities potentially resulting from these agency
                documents. Regulatory review is intended to provide assistance and guid-
                ance to the agency prior to the concurrence process. OIG does not concur
                in the agency actions reflected in the regulatory documents, but rather offers
                comments and requests responsive action within specified timeframes.

                From April 1, 2009, through September 30, 2009, OIG reviewed more than 300
                agency documents, including approximately 110 Commission papers (SECYs)
                and Staff Requirements Memoranda, and 200 Federal Register Notices,
                regulatory actions, and statutes.

                To effectively track the agency’s response to OIG regulatory review comments,
                OIG requests written replies within 90 days, with either a substantive reply or
                status of issues raised by OIG.

                The following are summaries of comments developed concerning a
                Management Directive and an agency ethics update.




6 NRC OIG Semiannual Report to Congress
MD 13.1 - Property Management. The OIG provided substantive comments
regarding revisions to Management Directive and Handbook 13.1, Property
Management. This directive establishes standards and procedures for the use
and control of agency property in accordance with Federal Management
Regulations, the Federal Acquisition Regulation, and guidance from the
Office of Management and Budget, General Services Administration, and
Government Accountability Office. The changes to the directive moved
the property function to the NRC Directorate for Space Planning and
Consolidation, changed the authority for control of property and added a
certification requirement to document Personally Identifiable Information
issues, added an independent verification requirement, and provided for
reporting lost property to the OIG.

OIG comments noted the need for additional dollar thresholds for specified
authority and more specificity in describing the Property Manager Authority
(PMA). In addition, OIG identified the need to include in the directive the
OIG General Property Survey Board for property under OIG responsibility.
The agency adopted OIG’s suggestion, with the exception of the additional
specificity for the PMA regarding authority to establish property accounts; the
agency asserted this was implicit and adequate when viewed in the context of
the overall directive.

Annual Update to the NRC Prohibited Securities List. It is NRC’s policy to
prohibit certain employees with substantive regulatory responsibilities, as
well as their spouses and or minor children, from owning stocks, bonds, and
other security interests issued by entities in the commercial nuclear field in
accordance with NRC Supplemental Regulation, “Prohibited Securities,” 5 CFR
5801.102. To assure that the list of prohibited interests is complete, the agency
Ethics Official solicits input from offices as to needed changes in an annual
update. This year, OIG identified entities that have submitted applications
for NRC licenses, in addition to those actually holding an NRC license, for
inclusion in the list. NRC has agreed to add these entities to the list.




                                                              April 1, 2009 – September 30, 2009 7
                OTHER ACTIVITIES
                Training Support for the Inspector General Community
                • 	 The OIG General Counsel supported the Inspector General Community
                    in training and presentations. The Attorney General guidelines for statu-
                    tory law enforcement authority for 1811 Criminal Investigators within
                    the Inspector General community include the requirement for periodic
                    training on specified legal issues. The Inspector General Criminal Inves-
                    tigator Academy was tasked with formulating the syllabus for the training
                    and identifying of appropriate teaching staff. The NRC OIG General
                    Counsel was part of a group of attorneys from several Inspector General
                    offices who constructed a model 3-hour course and participated in training
                    a cadre of attorney-trainers. During this period, the OIG General Counsel
                    presented this course in Chicago, Illinois, providing this mandatory
                    training to almost 50 OIG criminal investigators from more than a dozen
                    Federal agencies.

                • 	 The Council of Counsels to Inspectors General sponsors annual training
                    for law students working as summer interns in Inspector General offices
                    in the Washington, DC, area. In June, the NRC OIG General Counsel
                    provided a 1-hour presentation on the “History and Concept of the
                    Inspector General” as part of this training.

                • 	 The OIG General Counsel served as a guest speaker for the annual Space
                    and Warfare Command Inspector General Conference. During that 3-day
                    meeting, the General Counsel provided presentations to more than 30
                    Inspector General criminal investigators, auditors, and attorneys from field
                    offices nationwide. The presentations, titled, “Fraud and Reform,” covered
                    four matters of significance to the Inspector General community: the
                    Supreme Court decision in Allison Engine Co., Inc., et al. v. United States
                    ex rel Sanders, et al.; the Fraud Enforcement and Recovery Act of 2009; the
                    Inspector General Reform Act, and the recently enacted Federal Acquisi-
                    tion Regulation 3.1003, “Debarment and Suspension.” During the General
                    Counsel’s lectures, she related statutory and regulatory authority and stan-
                    dards applicable to each of the topics, and illustrated each discussion area
                    with examples from practice and evolving case law.




8 NRC OIG Semiannual Report to Congress
Management And Performance
Challenges

                         Most Serious Management and Performance Challenges
                              Facing the Nuclear Regulatory Commission*
                                       as of September 30, 20083
                                             (as identified by the Inspector General)

     Challenge 1	 Protection of nuclear material used for civilian purposes.

     Challenge 2	 Managing information to balance security with openness and accountability.

     Challenge 3	 Implementation of a risk-informed and performance-based regulatory approach.

     Challenge 4	 Ability to modify regulatory processes to meet a changing environment,
     	            to include the licensing of new nuclear facilities.

     Challenge 5	 Oversight of radiological waste.

     Challenge 6	 Implementation of information technology and information security measures.

     Challenge 7	 Administration of all aspects of financial management.

     Challenge 8	 Managing human capital.

     *The most serious management and performance challenges are not ranked in any order
     of importance.

The eight challenges are distinct, yet interdependent relative to the accomplishment of NRC’s
mission. For example, the challenge of managing human capital affects all other management
and performance challenges.




3
     ese management and performance challenges were used by the audit and investigative staff for work
    Th
    completed during Fiscal Year 2009. The Inspector General’s updated list of challenges (September 30,
    2009) appears on page 17 of this report. Audits reported as “in progress” are associated with the 2009 list.




                                                                                      April 1, 2009 – September 30, 2009 9
Audits
                    To help the agency improve its effectiveness and efficiency during this period, OIG
                    completed 12 financial and performance audits or evaluations that resulted in
                    numerous recommendations to NRC management. OIG also analyzed 2 contract
                    audit reports.

                    AUDIT SUMMARIES
                    Audit of NRC’s Force-on-Force Inspection Program
                    OIG Strategic Goal: Security

                                                      NRC conducts Force-on-Force inspections at each of
                                                      the Nation’s nuclear power plants on at least a triennial
                                                      basis in accordance with the 2005 Energy Policy Act.4
                                                      A Force-on-Force inspection is a performance-based
                                                      inspection designed to assess the ability of licensee
                                                      security organizations to protect their facilities against
                                                      sabotage.5 Any potentially significant deficiencies
                                                      identified during these inspections are to be promptly
                                                      corrected by the licensee.

                                              The Office of Nuclear Security and Incident Response
Licensee security personnel preparing for
                                              (NSIR) manages the Force-on-Force inspection program.
a Force-on-Force exercise.
                                              Force-on-Force inspections are part of NRC’s baseline
Source: NRC
                                              physical protection inspection program, and are the only
                    baseline inspections managed at the headquarters level.6 Teams of headquarters-
                    based inspectors and security risk analysts conduct inspections with support
                    from physical security inspectors based in NRC’s four regional offices. These
                    regional inspectors provide site-specific knowledge and represent their respective
                    offices while on site with headquarters staff and licensee employees. U.S. mili-
                    tary personnel serve as technical advisors to the NRC teams and assist with some
                    inspection tasks.

                    The Force-on-Force program budget for FY 2009 was approximately $3.5
                    million, and composed about 6 percent of NSIR’s FY 2009 budget. NRC began
                    the second triennial Force-on-Force inspection cycle in January 2008. NRC
                    planned to conduct 25 Force-on-Force inspections during FY 2009.


                    4
                        Pub L. No. 109-58, “The 2005 Energy Policy Act,” §651, August 8, 2005.
                    5
                         RC also conducts Force-on-Force inspections at other facilities that handle special nuclear materials,
                        N
                        such as nuclear fuel cycle facilities. However, this audit focused on inspections at nuclear power plants.
                    6
                        Inspection Procedure 71130, “Baseline Physical Protection Program.”


10 NRC OIG Semiannual Report to Congress
The audit objective was to evaluate NRC’s Force-on-Force inspection program
to determine if design and implementation of the program are thorough,
consistent, and in accordance with NRC standards. The audit focused on the
program’s development from the first triennial inspection cycle through the
current second triennial inspection cycle.

Audit Results:

NRC conducts Force-on-Force inspections to evaluate licensees’ ability to protect
nuclear power plants against Design Basis Threat (DBT) type adversaries.7

NRC meets its 2005 Energy Policy Act requirement to conduct Force-on-Force
inspections on a triennial basis, and the program has adequate management
controls to ensure that inspections are thorough and comply with NRC standards.
In particular, OIG found that:

• 	 NSIR management assessed the Force-on-Force program early in the
    second inspection cycle, and subsequently undertook organizational and
    procedural changes to improve internal controls and program perfor-
    mance. These changes included standardization of training requirements,
    increased recruitment and training of Force-on-Force personnel, and
    revised target set review procedures and standards.

• 	 Improved coordination of headquarters and regional inspection activities
    would result from a shared understanding of policies and procedures, and
    open communication among staff. NSIR and regional staff differ over inter-
    pretation of some inspection guidance, and over approaches to conducting
    Force-on-Force inspections. For example, the majority of regional staff
    interviewed characterized these inspections as excessively adversarial and
    attributed this to what they perceive as an overly aggressive mentality among
    headquarters staff and the composite adversary force that plays the role of an
    adversary force attacking the power plant. Yet, headquarters-based staff who
    expressed an opinion felt the exercises fairly test licensee security programs
    and appropriately fulfill NRC’s regulatory and statutory requirements to
    evaluate licensees.

• 	 Regional-headquarters differences in understanding have occurred in part
    because the program has undergone substantial changes in a short period
    of time, but procedural changes have not been effectively communicated

7
    The DBT reflects NRC’s intelligence analysis of the type, composition, and capabilities of potential adversaries.




                                                                                        April 1, 2009 – September 30, 2009 11
                   to regional staff in a systematic fashion. Differences among headquarters
                   and regional staff with respect to professional backgrounds and skillsets are
                   an additional factor. These issues have not compromised Force-on-Force
                   inspections; however, disagreements between headquarters and regional
                   staff regarding procedures and policy can undermine NRC’s credibility
                   with licensees and degrade staff morale.

                   By taking steps to reach agreement between headquarters and regional
                   staff regarding Force-on-Force inspection program guidance, objectives,
                   and best practices, NRC can better ensure its credibility with licensees and
                   foster positive working relationships among staff involved in the Force-on-
                   Force inspection program.

               (Addresses 2008 Management and Performance Challenges #1 and #8)

               Audit of NRC’s Oversight of Construction at New Nuclear Facilities
               OIG Strategic Goal: Safety

               In recent years, there has been renewed worldwide interest in constructing
               nuclear facilities. NRC is responsible for licensing and inspecting construction
               activities of new civilian-use nuclear reactor and fuel cycle facilities built in the
               United States. The nuclear industry is responsible for ensuring that the design
               and construction of these facilities are in accordance with applicable NRC
               regulations.

               During the 1970s and 1980s, NRC and its predecessor, the Atomic Energy
               Commission, oversaw the industry’s construction of the first generation of U.S.
               nuclear plants. Several of the construction projects experienced significant
               problems related to design and construction quality resulting in the cancel-
               lation of several plants in various stages of construction. Congress, at that
               time, questioned NRC’s ability to provide effective regulatory oversight of the
               construction activities and directed the agency to study ways to improve quality
               in the construction of future plants. In response to the congressional directive,
               NRC issued, in May 1984, NUREG-1055, Improving Quality and the Assurance
               of Quality in the Design and Construction of Nuclear Power Plants: A Report
               to Congress. The report concluded that NRC’s inspection practices were inad-
               equate and offered several recommendations to improve NRC programs.

               In 2006, NRC reorganized in response to the anticipated new reactor licensing
               and construction inspection workload. NRO was created in headquarters with
               the primary responsibility for developing the CIP and its associated program
               guidance. The CIP was designed to ensure that plants are built in accordance


12 NRC OIG Semiannual Report to Congress
                                                       Construction Lessons Learned Process
with the approved design and licensing require-
                                                                               NRO-REG-112
ments and will operate in compliance with NRC
                                                             Domestic
regulations. The agency continues to revise the             Experiences


CIP. In March 2009, NRO issued NRO-REG-112,                International
                                                                                              Construction     Construction
New Reactor Construction Experience Program, to
                                                            Experiences
                                                                               Evaluation    Lessons Learned    Inspections
                                                                                                                 Program
better inform the CIP. NRO-REG-112 provides             Past Lessons Learned
                                                           (NUREG 1055)

guidance for a new construction lessons learned           NRC Inspection
                                                                                              Not a Lessons
                                                                                                Learned

process that is informed by domestic and inter-             Activities


national experiences, past lessons learned, and        Source: OIG analysis
construction inspection activities.

The audit objective was to determine if and how NRC is identifying and
incorporating lessons learned in its new CIP.

Audit Results:

NRC’s process for identifying construction lessons learned contains some,
but not all, of the key elements of a successful program. Key elements include
support from upper management, a definition of the term “lessons learned,”
a well-defined work process for submitting and collecting potential lessons
learned, and screening by qualified personnel.

NRO-REG-112 lays out the foundation for gathering lessons learned data
related to construction, however, it does not comprehensively contain all the
key elements identified as important to the success of an organization’s lessons
learned program. For example:

• 	 The agency has not formally identified a lessons learned definition,
    presuming that the definition is commonly understood. Yet, all have
    different understandings and expectations for what it might include with
    most believing that lessons learned are negative events and not allowing for
    the possibility of including a positive event.

• 	 While the agency has incorporated guidance for maintaining and
    improving its lessons learned process, it lacks formal criteria to help iden-
    tify which issues must be brought forward for management consideration.

• 	 The agency does not have a procedure that documents how a lessons learned
    is implemented through the Construction Inspection Program.

• 	 The agency does not identify the level of expertise required for staff
    involvement in the construction lessons learned evaluation process.




                                                                   April 1, 2009 – September 30, 2009 13
                      The lack of well-developed guidance could jeopardize the CIP’s goal to prevent
                      recurrences of construction-related problems and may compromise the public’s
                      confidence in NRC’s ability to effectively oversee new nuclear construction
                      projects. (Addresses 2008 Management and Performance Challenge #4)

                      Audit of NRC’s Material Control and Accounting Security
                      Measures for Special Nuclear Materials at Fuel Cycle Facilities
                      OIG Strategic Goal: Security

                                         NRC is authorized to grant licenses for the possession and use of
                                         SNM8 and establish regulations to govern the possession and use
                                         of those materials. SNM is used for such purposes as (1) fuel for
                                         nuclear reactors; (2) industrial, academic, and medical applications;
                                         and (3) the manufacture of industrial gauging devices.

                                         NRC’s regulations require that SNM license holders have MC&A
                                         systems to protect against the loss or misuse of SNM. Licensees
                                         must allow NRC to inspect the materials, controls, and prem-
Fuel cycle facility employee             ises where SNM is used or stored. The primary goal of the NRC
processing uranium.                      MC&A inspection program at fuel cycle facilities is to ensure that
Source: Babcock and Wilcox Nuclear       licensee systems adequately detect and protect against the loss,
Operations Group
                                         theft, or diversion of SNM in the licensee’s possession.

                      The Office of Nuclear Material Safety and Safeguards is currently responsible
                      for the MC&A Inspection Program. The inspection program staff is composed
                      of one fully qualified inspector and three inspectors who are at various stages
                      in their 2-year training and qualification program. This current staff is split
                      between NRC headquarters in Rockville, Maryland, and NRC’s Region II office
                      in Atlanta, Georgia.

                      NRC requires MC&A inspections at Category I9 fuel cycle facilities10 twice per
                      calendar year, and these inspections require approximately 128 hours per site.
                      Upon completion of an inspection, staff return to their assigned offices and write
                      an inspection report. NRC’s MC&A Branch Chief reviews and approves the re-
                      port.

                      The audit objective was to assess the effectiveness of NRC’s MC&A inspection pro-
                      gram over the accounting and control of SNM at Category I fuel cycle facilities.
                      8
                          S NM is mildly radioactive, but includes uranium-233, uranium-235, and plutonium-239 -- which, in
                           concentrated form, can be the primary ingredients of nuclear explosives. These materials, in amounts
                           greater than formula quantities, are defined as “strategic special nuclear material.” The uranium-235
                           content of low-enriched uranium can be concentrated (i.e., enriched) to make highly enriched uranium,
                           the primary ingredient of an atomic bomb).


14 NRC OIG Semiannual Report to Congress
Audit Results:

The primary goal of NRC’s MC&A inspection program is to ensure that licensee
MC&A systems adequately detect the loss, theft, or diversion of SNM. However,
the MC&A Inspection Program is at risk from the following conditions:

• 	 Procedures lack prioritized direction and detailed sampling instruction.

• 	 Qualified staff are limited.

• 	 Specialized training that could enhance management knowledge has not
    been taken.

Procedures Lack Prioritized Direction and Detailed Sampling Instruction

NRC requires up-to-date, detailed procedures that provide guidance on setting
inspection priorities. Currently, inspectors must choose their MC&A inspec-
tion activities without the benefit of prioritized procedures containing detailed
sampling instruction. Additionally, the staff has established an “unwritten
procedure” or practice of limiting sample selection size in favor of expediency,
regardless of the size of the universe under review. Management stated that
they had not been made aware of any need for procedure revisions by the in-
spectors. The result is that there is no assurance that NRC’s relatively inexperi-
enced inspection MC&A inspection staff can conduct MC&A inspections in a
consistent, thorough manner.

Qualified Staff Are Limited

Management is responsible for ensuring that NRC’s workforce has the skills
necessary to achieve the agency’s goals. The MC&A inspection program is
currently operating with only one fully qualified inspector. In addition to
conducting inspections and writing inspection reports, this inspector pro-
vides on-the-job training to three inspectors-in-training. Limited availability
of required Department of Energy MC&A classes restricts the ability of NRC
MC&A inspectors-in-training to complete their qualifications within the re-
quired 2-year timeframe. The result of these training delays is an inspection
program that does not have a sufficient number of qualified inspectors to as-
sure that inspections are conducted in a consistent, thorough manner.


9
     C
      ategory I fuel cycle facilities are authorized to possess highly enriched uranium. Highly enriched
     uranium is fuel in which the weight percent of U-235 in the uranium is 20 percent or greater.
10
     A fuel cycle facility is a facility involved in the processing and fabrication of uranium ore into reactor fuel.




                                                                                          April 1, 2009 – September 30, 2009 15
             Specialized Training That Could Enhance Management Knowledge Has Not
             Been Taken

             NRC branch chiefs play an important role in overseeing inspection activities and
             should have a level of MC&A understanding that enables them to ensure effec-
             tive performance of their branch. However, the branch chief responsible for ap-
             proving MC&A fuel cycle facility inspection reports lacks specialized classroom
             training in this area. Specialized MC&A training is not required as a prerequisite
             to meet the qualifications to become an MC&A branch chief. However, without
             specialized classroom training, NRC lacks assurance that its branch chief has ex-
             pertise for thorough and independent assessment of inspectors’ work, increasing
             the risk that inspector errors will go undetected. (Addresses 2008 Management
             and Performance Challenges #1, 3, and 8)

             Inspector General’s Assessment of the Most Serious Management
             and Performance Challenges Facing NRC
             OIG Strategic Goal: Corporate Management

             The Reports Consolidation Act of 2000 requires the IG of each Federal agency
             to annually summarize what he or she considers to be the most serious manage-
             ment and performance challenges facing the agency and to assess the agency’s
             progress in addressing those challenges.

             In accordance with the act, the IG at NRC updated what he considers to be the
             most serious management and performance challenges facing NRC. The IG
             evaluated OIG’s overall work, the OIG staff ’s general knowledge of agency opera-
             tions, and other relevant information to develop and update his list of manage-
             ment and performance challenges. As part of the evaluation, OIG staff sought
             input from NRC’s Chairman, Commissioners, and management to obtain their
             views on what challenges the agency is facing and what efforts the agency has
             taken to address previously identified management challenges.

             Evaluation Results:

             The IG identified seven challenges that he considers the most serious manage-
             ment and performance challenges facing NRC as of September 30, 2009. The
             challenges identified represent critical areas or difficult tasks that warrant high-
             level management attention. The 2009 list of challenges reflects one change from
             the 2008 list in that prior challenge 3, Implementation of a risk-informed and
             performance-based regulatory approach, was removed as a standalone challenge.
             This challenge was included in the IG’s first list of management challenges, issued



16 NRC OIG Semiannual Report to Congress
to Congress in January 1998,11 and has remained on the list each year since, with
slight variations in wording. Although this regulatory approach – which incorpo-
rates risk analysis into regulatory decisions so that NRC and licensee attention can
be focused on areas of highest risk – is expected to continue evolving in the years
ahead, the approach is now mature and reflected throughout the agency’s regula-
tory framework. Therefore, the IG removed the challenge from the 2009 list and,
instead, addresses the issue in narrative about the other challenges, as appropriate.

The chart that follows provides an overview of the seven most serious management
and performance challenges as of September 30, 2009.

                         Most Serious Management and Performance Challenges
                              Facing the Nuclear Regulatory Commission *
                                       as of September 30, 200912
                                           (as identified by the Inspector General)

     Challenge 1	 Protection of nuclear material used for civilian purposes.

     Challenge 2	 Managing information to balance security with openness and accountability.

     Challenge 3	 Ability to modify regulatory processes to meet a changing environment,
     	            to include the licensing of new nuclear facilities.

     Challenge 4	 Oversight of radiological waste.

     Challenge 5	 Implementation of information technology and information security measures.

     Challenge 6	 Administration of all aspects of financial management.

     Challenge 7	 Managing human capital.

     *The most serious management and performance challenges are not ranked in any order
     of importance.


11
     I n December 1997, prior to the Reports Consolidation Act of 2000, Congressman Armey requested that
      Inspectors General independently identify the most serious management problems in their respective
      agencies to help Congress target key problem areas for attention. NRC’s IG complied with the request
      in January 1998. For subsequent lists, congressional members changed the word “problems” to “chal-
      lenges.” The Reports Consolidation Act of 2000 made this an annual reporting requirement for Federal
      Inspectors General.
12
      ese management and performance challenges will be used by the audit and investigative staff for
     Th
     work performed during Fiscal Year 2010.




                                                                                 April 1, 2009 – September 30, 2009 17
               Audit of NRC’s Grant Management Program
               OIG Strategic Goal: Corporate Management

               Pursuant to the Atomic Energy Act of 1954, as amended, and in conjunction
               with the Federal Grant and Cooperative Agreement Act of 1977, NRC may
               enter into arrangements to provide financial assistance to support programs
               with a public purpose that the Government wishes to encourage. Such assis-
               tance may be provided through grants to educational institutions, nonprofit
               organizations, State and local governments, and professional organizations.

               A grant is a legal instrument for transferring money, property, or services to a
               recipient. Grants differ significantly from contracts, which are used to acquire
               supplies or services for the direct benefit or use of the Government. While
               agencies must monitor contractor performance closely to ensure work is
               performed satisfactorily and in a timely manner, the standards for monitoring
               grantees are less prescriptive. In large part, it is left to agencies to develop their
               own specific monitoring expectations for grantees.

               NRC’s grant program has grown more than 36-fold since FY 2005 in response
               to legislation authorizing the agency to increase its nuclear education grants to
               universities for course and curricula development, fellowships, scholarships,
               and faculty development. In FY 2005, NRC provided approximately $564,000
               in financial assistance to outside entities, whereas in FY 2008, this figure was
               about $20 million.

               The audit objective was to determine whether NRC has established and imple-
               mented an effective system of internal controls for grants management.

               Audit Results:

               Although the agency recently achieved compliance with a Federal requirement
               to post monthly data on its grant spending on a Federal Government Web
               site (USASpending.gov), NRC (1) lacks overarching guidance concerning the
               current grant program, (2) does not require grants staff to have grant-specific
               training, (3) has incomplete and inconsistent grant files, and (4) has not issued
               a Federal regulation on debarment and suspension of irresponsible grantees.



               13
                     RC administers two types of grants: competitive and noncompetitive. Competitive grants are
                    N
                    awarded – after an NRC review and evaluation process – to applicants who responded to an NRC
                    funding opportunity announcement for a grant award. Noncompetitive grants are awarded to entities
                    that write to NRC at any given time and propose a project that NRC determines aligns with its mission,
                    provided money is available to fund the effort.


18 NRC OIG Semiannual Report to Congress
NRC Lacks Comprehensive Grants Program Guidance

NRC lacks a comprehensive guidance document describing the agency’s grant
policy and process to ensure the program functions as intended and that staff
fulfill their responsibilities. Before such guidance can be written, the agency
needs to complete its effort to define the competitive13 grant process. In October
2008, NRC initiated a Lean Six Sigma14 review of the agency’s grant process.
One of the team’s efforts has been to define the competitive and noncompetitive
grant processes; however, as of July 2009, the team had not reached agreement
on the competitive process and the process remains undocumented.

Without comprehensive guidance that includes options for managing grants,
staff employ inconsistent approaches to managing grants. For example, while
some project officers use site visits routinely to monitor grantees, another was
unaware that site visits were an option available for monitoring. Additionally,
NRC staff lack a clear understanding of the roles and responsibilities of the
various individuals and offices involved in the grant process.

NRC Does Not Require Grants Training

NRC employees responsible for awarding and managing grants need to be
trained in order to adequately perform their assigned duties. Currently, there
are varying degrees of training and experience among these staff because
management does not require training for those administering the grant
program. Auditors reviewed electronic agency training records for the 26 staff
(15 grant project officers and 11 Division of Contracts staff) who either (1)
awarded and provided oversight for the agency’s FY 2007 and FY 2008 grants
or (2) are working on the agency’s FY 2009 grants. Training records showed
that 7 of 11 Division of Contracts staff have not had any specific grant training
and none of the 15 project officers have had any specific grant training.15 As
a result, the NRC lacks assurance of adequate oversight of the grant program,
which can adversely affect the proper use of grant funds.

Grant Files Are Inconsistent and Incomplete

NRC grant files need to be complete and uniformly organized to facilitate
informed decisionmaking by staff involved in the grant process. However,


14
     Lean Six Sigma is a methodology that facilitates the review of processes, both technical and adminis-
     trative, to identify opportunities for process improvements. The results are intended to enhance effi-
     ciency, effectiveness, and knowledge management.
15
      ecords reviewed reflect only training that occurred between October 1, 2004, and July 1, 2009.
     R
     Training received prior to NRC employment and informal, in-house training provided to staff was not
     included in the recordkeeping system.


                                                                                   April 1, 2009 – September 30, 2009 19
               NRC official grant files are inconsistently organized and often incomplete.
               OIG reviewed official grant files for 36 (approximately 29 percent) of 126
               grants awarded in FY 2007 and FY 2008 to assess whether they contained key
               award and monitoring documentation. Only one grant file reviewed contained
               all relevant and significant documentation. Grant files are inconsistent and
               incomplete because agency management has not established standards or
               requirements for the content and organization of these files. Without timely
               and easy access to all relevant information on each grant award, NRC deci-
               sionmakers cannot always make fully informed decisions about awarding and
               managing grants.

               NRC Has Not Issued Regulation on Debarment and Suspension

               Executive Order 12549, “Debarment and Suspension,” requires Federal agen-
               cies with grant programs to issue regulations establishing their policies and
               procedures for debarment and suspension of irresponsible grantees. NRC
               has not issued such a regulation because agency officials were unaware of the
               requirement. Without issuing a regulation, NRC risks non-compliance with
               Federal requirements and may not be adequately protected if an irresponsible
               grantee misuses agency grant funds. (Addresses 2008 Management and Perfor-
               mance Challenge #7).

               Information System Security Evaluations of NRC’s Regional
               Offices and Technical Training Center
               OIG Strategic Goal: Security

               On December 17, 2002, the President signed the E-Government Act of 2002,
               which included the FISMA of 2002. FISMA outlines the information security
               management requirements for agencies, which include an annual indepen-
               dent evaluation of an agency’s information security program16 and practices to
               determine their effectiveness. This evaluation must include testing the effec-
               tiveness of information security policies, procedures, and practices for a repre-
               sentative subset of the agency’s information systems. FISMA also requires an
               assessment of compliance with FISMA requirements and related information
               security policies, procedures, standards, and guidelines.

               OIG issued FISMA evaluation reports prepared by an external auditor on
               NRC’s four regional offices and the Technical Training Center (TTC) in FY
               2009. The agency’s regional offices conduct inspection, enforcement, investi-


               16
                    For the purposes of FISMA, the agency uses the term “information system security program.”



20 NRC OIG Semiannual Report to Congress
gation, licensing, and emergency response programs for nuclear reactors, fuel
facilities, and materials licensees. NRC’s TTC, which has four onsite reactor
simulators, was established in Chattanooga in 1980 as part of an expanded
program of training based primarily on lessons learned from the Three Mile
Island incident. Information security policies, procedures, and practices at the
regional offices and the TTC were last assessed in 2003 and 2006.

The objectives for each of the information system security evaluations were to
(1) evaluate the adequacy of NRC’s information security program and prac-
tices for NRC automated information systems as implemented, (2) evaluate
the effectiveness of agency information security control techniques as imple-
mented, and (3) evaluate corrective actions planned and taken as a result of
previous OIG evaluations.

Although OIG issued separate reports on each of the five entities evaluated,
results from the publicly released versions of the reports are consolidated below.
More specific information than that which follows could not be provided in the
publicly released reports, or in this publicly available document.

Evaluation Results for Regions I, II, III, and IV and TTC:

Regions I, II, III, and IV and the TTC have each made improvements in their
implementation of NRC’s information system security program and practices
since the previous evaluations in 2003 and 2006. All corrective actions from
the previous evaluations have been implemented. However, the informa-
tion system security program and practices are not always consistent with the
NRC’s automated information systems security program as defined in Manage-
ment Directive and Handbook 12.5, NRC Automated Information Systems
Security Program, other NRC policies, FISMA, and National Institute of Stan-
dards and Technology guidance. Areas needing improvement at one or more
of the entities evaluated included physical and environmental controls, conti-
nuity of operations and emergency planning, and configuration management.
(Addresses 2008 Management and Performance Challenge #6)

Audit of the Regional Counsel Role in the Enforcement Process
OIG Strategic Goal: Safety

The NRC is authorized to enforce its regulatory requirements by imposing
sanctions against licensees who violate those requirements. NRC’s enforce-
ment program is directed by the Office of Enforcement in headquarters, but is
implemented primarily in the regional offices, where staff conduct inspections



                                                              April 1, 2009 – September 30, 2009 21
               and investigations of licensees to identify violations and assess their signifi-
               cance so that appropriate enforcement actions can be determined.

               In three of NRC’s four regional offices, a dedicated enforcement staff super-
               visor oversees the work of the regional enforcement staff and another indi-
               vidual serves as the region’s attorney, or Regional Counsel. In Region II,
               however, the Regional Counsel serves both as the region’s attorney and as the
               enforcement staff supervisor (dual role approach). As enforcement supervisor,
               this individual is to ensure that the region adheres to the agency’s enforce-
               ment policy, oversees the preparation of escalated enforcement packages, and
               performs other enforcement related tasks. As Regional Counsel, this indi-
               vidual provides legal advice to the region, including advice on the legal suffi-
               ciency of escalated enforcement packages.

               The OIG audit found that differences in the ways the regional offices imple-
               ment the enforcement program can significantly impact the enforcement
               process, leaving enforcement decisions vulnerable to challenge and potentially
               compromising public confidence in NRC’s enforcement program.

               The audit objective was to determine whether combining the roles of regional
               counsel and enforcement supervisor is a workable approach for regional
               enforcement programs.

               Audit Results:

               NRC uses the dual role position in Region II, but did not implement manage-
               ment controls to ensure that legal advice provided by the dual-role holder is
               readily distinguishable from non-legal advice nor follow human resources
               requirements to formally establish a dual role position in Region II.

               Management Controls Were Not Implemented To Ensure Distinction
               Between Legal and Non-Legal Advice

               Agency managers have not implemented management controls to ensure that
               legal advice provided by an agency attorney with a dual role is readily distin-
               guishable from non-legal advice.

               Distinguishing legal from non-legal advice is particularly important in connec-
               tion with attorney-client and attorney work product privilege and in light
               of the agency’s goal for openness and clarity in its regulation of the nuclear
               industry.




22 NRC OIG Semiannual Report to Congress
NRC’s Sensitive Unclassified Non-Safeguards Information policy requires
agency attorneys to mark their documents as containing legal advice when
appropriate, and the agency’s General Counsel expects such marking to occur;
however, the Region II dual role holder did not make such notations. Further-
more, there is no parallel requirement to provide similar clarification about
legal advice provided during oral discussions.

Management controls were not implemented because they were not deemed
necessary. However, without such clarification, the dual role arrangement
could lead to public misunderstanding or legal challenge related to the issue of
attorney-client privilege. Conversely, making such distinctions can help ensure
that NRC is able to protect legal advice it seeks to properly protect.

Human Resource Requirements Were Not Followed

Region II did not (1) develop a position description for the job or (2) evaluate
the position to ensure it was properly classified or included the necessary back-
ground requirements. Instead, the region simply assigned the enforcement
supervisor duties to the Regional Counsel without changing this individual’s
job title or assessing whether the Regional Counsel possessed the background
requirements listed in the enforcement supervisor position description.
Agency managers did not follow the required human resources steps because
they were unaware such steps were necessary. Without following human
resource requirements to formally establish a dual role position, the dual role
holder could be subject to unfair rating criteria, and the enforcement program
might not be adequately supported. (Addresses 2008 Management and Perfor-
mance Challenges #1, 2, and 8)

NRC Safety Culture and Climate Survey
OIG Strategic Goal: Safety, Security, and Corporate Management

During FY 2009, OIG engaged an independent contractor to assess NRC’s
safety culture and climate as well as other aspects of employee experi-
ence such as employee engagement. This was the fourth time that OIG has
facilitated such an assessment. The 2009 Safety Culture and Climate Survey
study comprised several distinct areas: a review of the existing research on
safety culture and climate; an evaluation of the 1998, 2002, and 2005 Safety
Culture and Climate Survey results and interviews of a random sample of
NRC employees and managers - both of these activities served as the basis for
designing the 2009 questionnaire; and a quantitative component consisting of
administering the survey to all NRC employees.



                                                             April 1, 2009 – September 30, 2009 23
                                    For purposes of this study, safety culture, as it relates to the agency, refers to
                                    the complex sum (or whole) of the mission, characteristics, and policies of an
                                    organization, and the thoughts and actions of its individual members, which
                                    establish and support nuclear safety and security as overriding priorities.
                                    Climate refers to the current work environment of the agency. Climate is like a
                                    snapshot in time and can affect culture.

                                    This research initiative was undertaken by OIG in anticipation of achieving
                                    a better understanding of NRC’s safety culture and climate that would iden-
                                    tify areas of agency strengths and opportunities for improvement. Agency
                                    program and support offices can use this information to develop action plans,
                                    as warranted. In addition, the OIG plans to use the survey results in connec-
                                    tion with risk assessments in order to facilitate annual audit planning.
 Percentage of Employees Responding Favorably                                                 Survey Results:
 NRC Overall 2009 (N=3,404)
                        Job Satisfaction                    	                      88
                                                                                              The Safety Culture and Climate Survey was
                            Engagement                      	                  85
                Clarity of Resposibilities                                    83
                                                                                              administered from May 4 – May 29, 2009. All
           NRC Mission & Strategic Plan                                      81               NRC employees and managers were eligible
                 Working Relationships                                       80
                                                                                              to participate. Of the 3,935 employees asked
                             NRC Image                                       80
                             Supervision                                 79
                                                                                              to participate, 3,404 completed surveys, for an
                 Workload and Support                                    79                   overall return rate of 87 percent. This return
               Management Leadership                                    74
                                                                                              is significantly higher than previous survey
                        Communication                                   74
   Continous Improvement Commitment                                     74
                                                                                              administrations (most recently, 71 percent
                         Empowerment                                69                        participation in 2005) and is more than suffi-
             Performance Management                                 69
                                                                                              cient to provide a reliable and valid measure
             Training and Development                              67
Open, Collaborative Working Enviroment                            65
                                                                                              of the current attitudes and perceptions of
                           Quality Focus                          64                          NRC employees and managers.
                Organizational Change                       55
                                             0	     25	     50	
                                                                   The 2009 survey results were more favor-
                                                                             75	        100

 Source: OIG contractor analysis
                                                                   able in all 15 comparable categories17 when
                                    compared to the U.S. National Norm,18 and in all 15 comparable categories
                                    when compared to the U.S. Research and Development Norm.19

                                    The 2009 survey also provided a new external benchmark comparison, the U.S.

                                     17
                                          The 15 categories assessed were (1) NRC mission and strategic plan, (2) training and development, (3)
                                          workload and support, (4) communication, (5) empowerment, (6) performance management, (7) working
                                          relationships, (8) management leadership, (9) engagement, (10) continuous improvement commitment, (11)
                                          supervision, (12) NRC image, (13) job satisfaction, (14) clarity of responsibilities, and (15) quality focus.
                                     18
                                           e U.S. National Norm is composed of organizations representing a broad spectrum of industries
                                          Th
                                          across the United States and has been updated in the last 12 months. Employees in the norm are
                                          Hourly, Salaried, Exempt and Non-Exempt up to and including Executives. Organizations in the norm
                                          are weighted to ensure proper proportionality.
                                     19
                                           e U.S. Research and Development Norm is a representative sample of the U.S. research and develop-
                                          Th
                                          ment workforce weighted according to Bureau of Labor Statistics data. This norm contains a represen-
                                          tative sample of organizations throughout the U.S. and from research and development functions.


  24 NRC OIG Semiannual Report to Congress
High Performance Norm. This norm is composed of organizations that have
exceptional financial and employee opinion survey results, and companies in the
norm are often cited for being extremely well managed. When compared to this
rigorous norm, the NRC is more favorable in 13 of the 14 comparable categories.20

The 2009 survey shows significant improvements over the 2005 results, with
16 of 17 categories significantly more favorable. The largest increases were in
NRC Mission and Strategic Plan, NRC Image, and Performance Management.
The results also demonstrated that employee engagement at the NRC is highly
affected by attitudes toward Management Leadership, Continuous Improve-
ment Commitment and Training and Development.

The survey provided certain strengths for the NRC to maintain and
opportunities for improvement.
Key Strengths To Maintain
• 	 Workload and Support–work schedules, prioritization, and computer
    systems viewed favorably.
• 	 Quality Focus–excellent quality, and improvement on sacrificing quality
    for metrics or personal/political needs.
• 	 Training and Development–training opportunities; personal growth and
    development; talent management.
• 	 Performance Management–performance evaluated fairly; performance
    reviews are helpful.
• 	 Open, Collaborative Working Environment–much greater awareness and
    acceptance of programs and processes.
Key Opportunities For Improvement
• 	 NRC Image–holding all employees to the same ethical standards.
• 	 Training and Development–availability of classes and personal workload
    interfering with ability to attend training.
• 	 Communication–NRC public Web site, Agencywide Documents Access
    and Management System (ADAMS), not viewed as favorably as in 2005.
• 	 Organizational Change–concern about the future of the nuclear industry
    and frequent changes of one’s supervisor.
• 	 Empowerment –management trusting employees’ judgment.
(Addresses 2008 Management and Performance Challenges #1, 2, 3, and 8)

 Same categories as listed in footnote 15 except for continuous improvement commitment, which was
20

   not assessed as part of the High-Performance Norm.


                                                                            April 1, 2009 – September 30, 2009 25
               AUDITS IN PROGRESS
               Audit of NRC’s Personnel Security for Employees
               OIG Strategic Goal: Security

               The Atomic Energy Act of 1954, as amended, requires all NRC employees to
               have a security clearance, but allows employees to begin working for NRC
               prior to their clearance — provided the Commission determines that such
               employment is in the national interest and the employee does not have access
               to classified information. Today, nearly all NRC employees are permitted to
               begin work before receiving a security clearance, but only after the Division
               of Facilities and Security (DFS) conducts an in-house review of the prospec-
               tive employee’s background information as reported by the individual, credit
               history, and criminal history; evaluates the results; and determines there are
               no factors that constitute a security risk to the agency. Based on this review,
               NRC grants an initial approval for the employee to begin work. This approval
               is referred to as a preappointment investigation waiver.

               After NRC grants this initial approval to begin work (with no access to classi-
               fied information), the agency requests a full background investigation, appro-
               priate for either an L or Q clearance, from the Office of Personnel Management
               (OPM). After the OPM background investigation is returned to NRC, DFS
               staff evaluate the subject in light of the OPM investigative report information.
               Based on the issues raised, it may take DFS several months to more than a year
               to complete this review and make a recommendation to the DFS Director to
               grant or deny a security clearance. As a result, some NRC employees work for
               up to 2 years at NRC before receiving a security clearance.

               The audit objectives are to determine whether (1) NRC is in compliance with
               external and internal personnel security requirements and (2) NRC’s personnel
               program is efficiently managed. (Addresses 2009 Management and Perfor-
               mance Challenges #2 and #7)

               Audit of NRC’s Quality Assurance Planning for New Reactors
               OIG Strategic Goal: Safety

               Chapter 10, Part 50, of the Federal Code of Regulations (10 CFR 50) requires
               every applicant for a construction permit to include in its preliminary safety
               analysis report a description of the quality assurance program to be applied
               to the design, fabrication, construction, and testing of the structures, systems,



26 NRC OIG Semiannual Report to Congress
and components of the facility. This quality assurance program includes the
managerial and administrative controls to be used to assure safe operation.
These requirements also apply to holders of, and applicants for, combined
licenses issued under 10 CFR 52. Current applications for new nuclear power
plants pending before the NRC were submitted under 10 CFR 52.

As part of its regulatory responsibilities, NRC reviews and evaluates the
description of the quality assurance program for the design and construction
phases in each application for an early site permit, a combined license, or a
standardized design approval. After docketing a combined license applica-
tion, NRC performs a substantive review of the applicant’s quality assurance
program description relative to ongoing design and procurement activities.
NRC also conducts an inspection to determine that a satisfactory quality
assurance program was established and is being implemented.

The audit objective is to determine how NRC has identified and incorporated
quality assurance lessons learned into its preparations for the next generation
of nuclear plants. (Addresses 2009 Management and Performance Challenge #3)

Audit of NRC Management Directive 6.8 – Lessons Learned
Programs
OIG Strategic Goal: Safety

In 2002, NRC created the Davis-Besse Lessons Learned Task Force to evaluate
the agency’s regulatory processes used during the Davis-Besse event.21 The
Davis-Besse Lessons Learned Task Force recommended, among other things,
that NRC conduct an effectiveness review of the actions taken in response
to past lessons learned reviews. Consequently, the Office Nuclear Reactor
Regulation (NRR) established the Effectiveness Review Lessons Learned Task
Force (ERLLTF). This task force found that some corrective actions imple-
mented prior to the Davis-Besse event had not been effective. In response, the
Executive Director for Operations (EDO) assigned the ERLLTF to establish a
program to institutionalize significant agencywide lessons learned.

On August 1, 2006, the agency issued MD 6.8 to establish the formal and
structured process needed to manage corrective actions for significant agen-
cywide lessons learned. The EDO has primary oversight of the program, but
has delegated this responsibility to a Lessons Learned Program Manager (the

 In March 2002, plant workers at the Davis-Besse Nuclear Power Station found significant damage to a
21

   reactor vessel while conducting a routine repair. This problem led to a leakage of reactor cooling water,
   which contains boric acid and can damage other areas of the nuclear reactor.


                                                                                  April 1, 2009 – September 30, 2009 27
               program manager) and a Lessons Learned Oversight Board (the Oversight
               Board). The Oversight Board is composed of deputy office directors from
               NRR, the Office of New Reactors, the Office of Nuclear Material Safety and
               Safeguards (NMSS), the Office of Federal and State Materials and Environ-
               mental Management Programs, the Office of Nuclear Regulatory Research,
               NSIR, and a representative from one of the four NRC regions.

               The objective of this audit is to determine whether NRC’s agencywide Lessons
               Learned Program meets its intended purpose to ensure that knowledge gained
               from significant lessons learned is retained and disseminated in a manner that
               will maximize its benefit and usefulness to the staff. (Addresses 2009 Manage-
               ment and Performance Challenges #1 and #3)

               Audit of NRC’s Management Controls Over the Placement and
               Monitoring of Work With Department of Energy Laboratories
               Oig Strategic Goal: Corporate Management

               NRC obligated approximately $67 million and $65 million during FY 2007 and
               FY 2008 (October 1, 2007, through August 4, 2008), respectively, for agree-
               ments with Department of Energy (DOE) laboratories. NRC MD 11.7, NRC
               Procedures for Placement of Work With the U.S. Department of Energy, states, “It
               is the policy of the U.S. Nuclear Regulatory Commission that work placed with
               the U.S. Department of Energy be managed effectively.”

               The MD and associated handbook specify the interagency responsibilities,
               authorities, and procedures for placement and monitoring of work with DOE
               and its contractors. The objectives of MD 11.7 are to ensure (1) that proce-
               dures for negotiating and managing agreements with DOE are consistent with
               sound business practices and contracting principles; (2) uniform applica-
               tion of an agencywide standard of contract management for projects placed
               with DOE; and (3) that a framework exists for program management control,
               administration, monitoring, and closeout of projects placed with DOE.

               This area was last reviewed in FY 1997. As a result of the workload associated
               with new reactors, the number of DOE lab agreements has increased.

               The audit objective is to determine whether NRC has established and imple-
               mented an effective system of internal control over the placement and moni-
               toring of work with DOE laboratories. (Addresses 2009 Management and
               Performance Challenge #7)




28 NRC OIG Semiannual Report to Congress
Audit of Electronic Submissions from Licensees
Oig Strategic Goal: Corporate Management

NRC developed an enhancement to the existing software and procedures
to facilitate the receipt and loading of combined license applications into
ADAMS. This effort included working with an industry task force to ensure
that the applications would be formatted consistently and that the submitters
and NRC staff had a common understanding of how applications would be
structured. The system has been used for applications for combined licenses
(including major documents such as the final safety analysis reports, emer-
gency plans, and environmental reports) and design certifications. Guidance
on the electronic submittal of applications related to new reactors is provided
in Chapter 8 of “Guidance for Electronic Submissions to the NRC,” which is
posted on NRC’s public Web site.

Although the initiative appears generally successful, there have been some
implementation issues and suggested improvements. The most notable
problems identified have included (1) delays in processing applications
because some files provided did not meet NRC expectations for loading
into ADAMS, and (2) the means used to make the electronic versions of
the applications available to the public (via NRC public Web site). Favor-
able comments have been received related to the ease of use (e.g., use of
hyperlinks between major documents) and efficiencies gained from previous
processing of paper applications.

The audit objective will be to evaluate NRC’s use of electronic submissions in
NRO and its applicability to other NRC’s activities such as in NRR. (Addresses
2009 Management and Performance Challenge #2)

FY 2009 Financial Statement Audit
Oig Strategic Goal: Corporate Management

Under the Chief Financial Officers Act and the Government Management
and Reform Act, the OIG is required to audit NRC’s financial statements.
OIG will measure the agency’s improvements by assessing corrective action
taken on prior audit findings. The report on the audit of the agency’s finan-
cial statements is due on November 15, 2009. In addition, the OIG will issue
reports on:




                                                             April 1, 2009 – September 30, 2009 29
               • 	 Special Purpose Financial Statements.
               • 	 Implementation of the Federal Managers’ Financial Integrity Act.
               • 	 Condensed Financial Statements.
               The audit objectives are to:
               • 	 Express opinions on the agency’s financial statements and internal controls.
               • 	 Review compliance with applicable laws and regulations.
               • 	 Review the performance measures included in the agency’s Performance
                   and Accountability Report as required by Office of Management and Budget
                   guidance.
               • 	 Review the controls in NRC’s computer systems that are significant to the
                   financial statements.
               • 	 Assess the agency’s compliance with Office of Management and Budget Circular
                   A-123, Revised, Management’s Responsibility for Internal Control.
               (Addresses 2009 Management and Performance Challenge #6)

               Audit of NRC’s Protections Against Social Engineering Attacks
               Oig Strategic Goal: Security

               Effective security is multifaceted and must include integrated protections
               provided by various components of a defense-in-depth strategy. Recent
               examples where Federal agency and private corporate data became publicly
               available highlight the necessity to provide and ensure protections in all areas.
               Unless agency technical, management, and operation security controls work in
               concert, there is potential for an attacker to exploit a weakness in a faulty secu-
               rity construct. Accordingly, an organization’s security posture is only as strong
               as its weakest link, which more often than not is the result of human error.

               Social engineers seek to exploit weakness in a facility’s security posture to gain
               access to the facility and its critical information systems and data. Therefore, it
               is important for Government agencies to identify their most critical personnel
               and operational weaknesses so they may improve the mechanisms on which
               their security posture depends.

               The audit objective will be to assess the effectiveness and adequacy of the
               agency’s security control measures used to protect the security and integrity



30 NRC OIG Semiannual Report to Congress
of sensitive information technology systems and data in the event of a social
engineering attack. (Addresses 2009 Management and Performance Challenges
#2 and #5)

Audit of NRC’s Telework Program
Oig Strategic Goal: Corporate Management

Public Law 106-345, Section 359, states, “Each executive agency shall establish
a policy under which employees of the agency may participate in telecom-
muting to the maximum extent possible without diminishing employee perfor-
mance.” Telework benefits employers and employees through reduced costs
and increased productivity. Telework can also play a critical role in Continuity
of Operations activities. Recent events have necessitated a need for Continuity
of Operations planning. This planning is intended to ensure that essential
functions can continue during and after a disaster. A social benefit is also
gained from telework with the reduction of traffic and pollution. The agency
expects to grow from about 3,600 employees in FY 2008 to more than 4,000 by
FY 2010. This growth will place a premium on office space and equipment.

NRC has a Flexible Workplace Program (Flexiplace) that allows employees in
eligible positions to apply for a fixed-schedule telework arrangement. Under
Flexiplace, employees may work at home or at an offsite location, for up to 3
days per week, with the approval of their office director or regional admin-
istrator. Alternatively, employees can request to participate in the Flexiplace
Program under a project-based schedule.

The audit objectives are to determine:
• 	 If NRC’s telework program complies with relevant law and OPM guidance.
• 	 The adequacy of internal controls associated with the telework program.
• 	 NRC’s readiness to have staff telework under emergency situations.
(Addresses 2009 Management and Performance Challenge #7)

Audit of NRC’s Physical Security Inspection Program for Fuel
Cycle Facilities
Oig Strategic Goal: Security

NSIR manages the overall development and implementation of policies and
programs for security at fuel cycle facilities. NSIR also manages contingency



                                                             April 1, 2009 – September 30, 2009 31
               planning and emergency response activities for safeguards events at fuel cycle
               facilities and assesses fuel cycle facility reports. Additionally, the staff provides
               inspection program oversight for fuel cycle security inspection programs.
               With respect to MC&A, the branch conducts safeguards technical and regu-
               latory reviews of physical protection and MC&A programs and revised the
               MC&A Manual Chapter and Inspection Procedures.

               Over the past several years the responsibility for security inspections of fuel
               cycle facilities has been moved between NMSS and NSIR numerous times.
               Currently, NMSS’ MC&A Branch and NSIR’s Fuel Cycle Safeguards and
               Security Branch share overlapping inspection responsibilities.

               The audit objective will be to assess the effectiveness of the physical security
               inspection program at fuel cycle facilities. (Addresses 2009 Management and
               Performance Challenge #1)

               FY 2009 Evaluation of FISMA
               Oig Strategic Goal: Security

               FISMA was enacted on December 17, 2002. FISMA permanently reauthorized
               the framework laid out in the Government Information Security Reform Act,
               which expired in November 2002. FISMA outlines the information secu-
               rity management requirements for agencies, including the requirement for
               an annual review and annual independent assessment by agency inspectors
               general. In addition, FISMA includes new provisions such as the development
               of minimum standards for agency systems, aimed at further strengthening the
               security of the Federal Government information and information systems.
               The annual assessments provide agencies with the information needed to
               determine the effectiveness of overall security programs and to develop strate-
               gies and best practices for improving information security.

               The audit objectives will be to evaluate the (1) adequacy of NRC’s informa-
               tion security programs and practices for NRC major applications and general
               support systems of record for FY 2009, (2) effectiveness of agency information
               security control techniques, and (3) implementation of the NRC’s corrective
               action plan created as a result of the 2008 FISMA program review. (Addresses
               2009 Management and Performance Challenge #5)




32 NRC OIG Semiannual Report to Congress
Investigations
During this reporting period, OIG received 82 allegations, initiated 28 investigations,
and closed 26 cases. In addition, OIG made 21 referrals to NRC management and
9 to the Department of Justice.

INVESTIGATIVE CASE SUMMARIES
NRC’s Process for Reviewing Security Related Allegations
OIG Strategic Goal: Security

OIG conducted an investigation into NRC’s process for reviewing security
related allegations in the four NRC regional offices. Specifically, OIG exam-
ined security related allegations that were reported to NRC Regions I, II,
III, and IV from October 2004 through August 2007, and interviewed staff
involved in the allegation process.

The NRC Allegation Management Program establishes a process by which
concerns regarding nuclear power plant safety and security received by the
NRC will be assessed and addressed. MD 8.8, Management of Allegations,
states that there is no threshold for NRC to accept an allegation and that the
type and amount of effort required to bring an allegation to closure is a deci-
sion made by a regional or office allegation review board on a case-by-case
basis. MD 8.8 encourages the NRC staff to refer “as many allegations as
possible” to NRC licensees and provides criteria for doing so. The MD also
clearly instructs staff not to refer allegations made against licensee manage-
ment or against those parties who would normally receive and address allega-
tions. MD 8.8 also requires NRC staff to review reports submitted by licensees
following their evaluation of the allegation to ensure they are adequate. MD
8.8 states that if NRC staff has questions about the licensee’s response, staff may
contact the licensee for clarification and/or reconvene an allegation review
board to discuss what followup is needed.

During this investigation, OIG reviewed 318 allegation files associated with
security allegations received by the four regions between October 2004 and
August 2007. The 318 allegations contained 658 security related concerns and
the regions referred 257, or 39.1 percent, of the 658 concerns to licensees for
evaluation. Licensees concluded that 45, or 17.5 percent, of the security related
concerns referred to them were substantiated. NRC handled the remaining
401 concerns through (1) region-based inspections or other types of regional
follow-up, (2) referral to NRC’s Office of Investigations, or (3) referral to other
Federal agencies. Of the 401 concerns addressed by the NRC, 103, or 25.7
percent, were substantiated.


                                                                 April 1, 2009 – September 30, 2009 33
                   OIG found that the regions generally acted in accordance with the guidance in
                   MD 8.8 for receipt and processing of allegations. However, OIG noted several
                   shortcomings in NRC’s review process. For example, the regional staffs did
                   not routinely verify information provided in the licensee evaluations. Instead,
                   regional staffs typically accepted, at face value, the licensee’s methodology for
                   reviewing a particular concern and trusted the accuracy of the information
                   provided. Further, the NRC staff did not typically request supporting docu-
                   mentation to allow an independent assessment of the effectiveness or relevance
                   of policies and procedures that licensees may cite in their evaluation reports.

                   OIG noted that while MD 8.8 includes suggested questions for staff to use in
                   judging the adequacy of the licensee’s response, these questions were subjective in
                   nature, and the agency has not provided staff with criteria to assist them in assessing
                   licensee responses. For example, OIG noted that licensee evaluations often cite
                   interviews conducted with a sample of staff to assess the validity of a particular
                   concern; yet, NRC staff lack guidance on how to evaluate whether the sampling
                   methodology was appropriate for reaching conclusions based on the number of
                   interviews conducted. (Addresses 2008 Management and Performance Challenge #2)

                   Alleged Manipulation of Reactor Oversight Process
                   OIG Strategic Goal: Safety

                                        OIG conducted an investigation into an allegation that
                                        NRC manipulated the agency’s ROP. The allegation specifi-
                                        cally referred to the way in which NRC processed an issue
                                        for Kewaunee Nuclear Power Plant (Kewaunee), that
                                        prevented moving the plant from Column 3 to Column 4 of
                                        the ROP’s action matrix, allegedly because NRC lacked or
                                        did not want to devote the additional resources to complete
                                        additional inspections.

                                          NRC uses the ROP to evaluate licensee performance and
Kewaunee Nuclear Power Plant              determine what, if any, additional regulatory actions
Photo courtesy of NRC                     (including inspections) are required for increased regula-
                                          tory oversight as plant performance declines. Specifically,
                      there are four columns in NRC’s action matrix, the tool used to categorize
                      licensees into groups warranting different levels of NRC inspection and over-
                      sight based on plant performance. In Column 1, plants receive the standard
                      baseline regulatory oversight program of inspections and reviews; the level of
                      oversight increases incrementally in Columns 2, 3, and 4.



34 NRC OIG Semiannual Report to Congress
This investigation did not substantiate that NRC manipulated the ROP to
prevent Kewaunee from moving to a higher column in the ROP action matrix
because of a lack of resources.

OIG learned that the licensee first documented a diesel generator fuel leak on
June 28, 2006, and attempted to repair the deficiency. On August 17, 2006,
during a 2-hour surveillance test, the fuel leak worsened, causing the diesel
generator to be declared inoperable by the licensee. On August 18, 2006, the
licensee repaired the diesel generator and declared it operable. There were
a total of 51 days from the time when the leak was first discovered until the
diesel generator was declared operable after the failed surveillance test. When
NRC reviewed this event as an inspection finding, the diesel generator was
characterized as inoperable for 51 days and given a white finding color.

The licensee disagreed with NRC’s assessment of the period of inoperability
and appealed the NRC decision. An appeal hearing, which included oral
presentations and written summaries, was conducted by the Director, Divi-
sion of Inspection and Regional Support (DIRS). However, this DIRS Director
was promoted to a different position before a decision was made. A new DIRS
Director later reviewed available documents and consulted with NRC staff
members, including the former DIRS Director, regarding the issue, and ulti-
mately ruled in favor of the licensee.

Five NRC headquarters and regional staff members told OIG that they
disagreed with the ruling, but acknowledged there were reasonable arguments
on both sides. None of the staff members could cite specific evidence of NRC
ever having prevented a plant from moving columns due to resource issues,
including in this case. Six senior level NRR managers, including the Director
and Deputy Director, told OIG that resources are not an issue when a licensee
moves columns within the action matrix because the additional resources
needed for inspections are always available from other regions and from head-
quarters. (Addresses 2008 Management and Performance Challenges #1 and #4)

Possible Overcharging of Hours by an NRC Contractor
OIG Strategic Goal: Corporate Management

OIG conducted an investigation into an allegation that an NRC contractor
overbilled the agency for one of the contract deliverables. OIG reviewed
the contract and learned that it was for review of a license application. The
contract was a 5-year cost-reimbursement plus fixed fee, indefinite quantity,




                                                            April 1, 2009 – September 30, 2009 35
               task ordering contract22 that contained numerous task orders (TO), some
               of which contained subtask orders. The contractor was expected not to
               exceed the allocated budget for each TO. However, the contract allowed the
               contractor flexibility in how hours are billed between subtask orders, provided
               the hours did not exceed the total number of hours dedicated to the TO.

               The NRC technical monitor reviewed the TO and subtask, and determined
               that it reflected very little effort by the subcontractor. The technical monitor
               also questioned the hours billed by the subcontractor (104 billable hours for
               $11,960), and felt that too many hours were billed to the subtask based on his
               assessment of the quality of the subtask deliverable, and the number of hours
               the contractor initially estimated it would take to complete the subtask.

               The NRC technical monitor placed a stop payment on the voucher, which
               resulted in NRC’s Division of Contracts withholding payment on the voucher
               until the disputed hours were resolved with the contractor. The technical
               monitor also raised his concerns to the NRO project manager for this contract.
               The project manager consulted with an independent NRC engineer to review
               the deliverable. The engineer said that while the deliverable was not of the best
               quality, it was acceptable. The project manager explained that under this cost-
               reimbursement contract, it is permissible for the contractor to bill higher than
               the contractor’s initial cost estimate for subtasks, provided the overarching task
               cost estimate is not exceeded, which was the case with this TO.

               OIG determined that the contractor’s billing was consistent with the contract
               vehicle. OIG also determined that the NRC contract project manager took
               appropriate steps to assess the adequacy of the deliverable after learning of the
               technical monitor’s concern and that prior to payment, the project manager
               determined the work was acceptable. The project manager’s determination
               was based on the fact that the contractor did the work even though it was
               not of the high quality expected by the technical monitor. (Addresses 2008
               Management and Performance Challenge #7)




                A cost-plus-fixed-fee contract is a cost-reimbursement contract that provides for payment to the
               22

                  contractor of a negotiated fee that is fixed at the inception of the contract. The fixed fee does not vary
                  with actual cost, but may be adjusted as a result of changes in the work to be performed under the
                  contract. This contract type permits contracting for efforts that might otherwise present too great a risk
                  to contractors, but it provides the contractor an incentive to control costs.




36 NRC OIG Semiannual Report to Congress
NRC Allows the Nuclear Energy Institute Opportunity to
Review and Edit Regulatory Issue Summary Documents
OIG Strategic Goal: Security

OIG completed an investigation into an allegation that NRC afforded the
Nuclear Energy Institute (NEI) an exclusive opportunity to comment on and
edit two NRC regulatory issue summaries (RIS), and that the draft RISs were
not published in the Federal Register or made available on NRC’s Documents
for Comment Web page.

OIG determined that NRC provided both the public and NEI equal access to
the draft RISs on the agency’s Web site in accordance with Commission policy.
OIG also determined that there was no requirement to post the RISs in the
Federal Register.

NRC’s policy statement on Enhancing Public Participation in NRC Meetings
states that public notice of meetings will be posted on the NRC Web site and
will include background documents or other materials that could be helpful to
meeting attendees. Also, MD 3.5, Attendance at NRC Sponsored Meetings, Part
III, Part (C), Procedures for Noticing a Meeting, states that staff should ensure
that documents available for public comment are posted on the Documents
for Comment Web page on NRC’s public Web site, and that notices of meet-
ings are posted on the Public Meeting Schedule Web page, also located on the
public Web site.

OIG determined that although NRC posted notification of the meetings and
the draft RISs on the agency’s Public Meeting Schedule Web page in accor-
dance with the Commission policy, NRC deviated from MD 3.5 in that the
two draft RISs were not posted on the Documents for Comment Web page.
OIG also determined that the staff did not publish the draft RISs in the Federal
Register for public comment because these two generic communications did
not communicate new policy, and therefore there was no requirement to post
the RISs in the Federal Register. (Addresses 2008 Management and Perfor-
mance Challenge #2)




                                                             April 1, 2009 – September 30, 2009 37
               Alleged Conflict of Interest by a Former NRC Commissioner
               OIG Strategic Goal: Corporate Management

               OIG conducted an investigation into an allegation that a former NRC
               Commissioner’s post-NRC employment with a nuclear industry vendor consti-
               tuted a conflict of interest.

               The criminal conflict-of-interest law, Title 18 United States Code 208(a)
               prohibits, in part, Federal employees from participating personally and
               substantially in any Government matter that the employee knows could have
               a direct and predictable effect on the financial interest of the employee, or
               anyone with whom the employee is negotiating, or has an arrangement for
               employment. This law requires employees to disqualify themselves from
               participating in any Government matter if the matter could affect any of these
               prohibited interests. The Ethics in Government Act of 1978, as amended, and
               Title 5, Code of Federal Regulations, part 2634, requires that each year, Federal
               Government employees whose positions are classified as GS-15 or above file
               a Standard Form (SF) 278. The SF 278, requires, in part, employees to report
               travel-related reimbursements that exceed $260, and requires individuals to
               report information on negotiations for future employment from the point at
               which the employee and potential non-Federal employer have agreed to the
               employee’s future employment by the employer, regardless of whether all terms
               have been settled.

               By way of background, prior to the termination of his term, the former NRC
               Commissioner advised his staff and an NRC Office of the General Counsel
               attorney of an arrangement he had made with an attorney to serve as an inter-
               mediary between himself and potential future employers. Under this arrange-
               ment, the intermediary would field all prospective employment offers for the
               Commissioner and the Commissioner would not discuss employment with
               anyone except the intermediary until the Commissioner completed his term.
               In the event that the NRC Commissioner’s staff received any potential employ-
               ment inquiries, the NRC Commissioner’s staff were to forward the inquiries to
               the intermediary.




38 NRC OIG Semiannual Report to Congress
OIG determined that the NRC Commissioner did not take effective measures
to prevent a potential conflict of interest during the last 2 months of his term.
Although the NRC Commissioner set up an arrangement to pursue post-
Government employment via a third party while serving as Commissioner,
the Commissioner stopped following this arrangement prior to the end of his
term and began negotiating directly with potential employers. At this point,
the NRC Commissioner did not establish a process to ensure a thorough
screening of and recusal from matters before the Commission. Although the
NRC Commissioner was ultimately responsible for exercising his recusal, he
also relied on his staff to screen matters that involved potential employers with
whom he was negotiating employment. However, the NRC Commissioner
did not provide his staff with necessary details of his job search or establish a
process for evaluating matters before the Commission to ensure he disqualified
himself from involvement with potential conflict-of-interest issues. Moreover,
his staff did not effectively screen matters to assist him in exercising his recusal
option.

OIG determined that the NRC Commissioner was directly involved in employ-
ment negotiations with a nuclear vendor and two other nuclear companies that
could have potentially benefitted financially from his votes on two separate
internal policy proposals from the NRC staff (known as SECY papers). These
votes occurred during the specific timeframes in which the NRC Commis-
sioner was negotiating with the three companies.

OIG also found that the NRC Commissioner did not report on his final SF
278, which he was required to complete prior to the end of his term, the
information related to his acceptance of the nuclear vendor’s job offer. The
NRC Commissioner also did not timely report his non-Government travel
related reimbursements totaling $3,552.47, in connection with potential post-
NRC employment discussions with the nuclear vendor and another nuclear
company.

OIG referred this investigation to the Department of Justice, U.S. Attorney’s
Office, District of Maryland, which declined prosecution. (Addresses
2008 Management and Performance Challenge #2)




                                                               April 1, 2009 – September 30, 2009 39
Summary Of OIG Accomplishments
       INVESTIGATIVE STATISTICS
       Source of Allegations — April 1, 2009, through September 30, 2009
                   NRC Employee                                         14

               NRC Management                                      11
       Other Government Agency              3

                       Intervenor                    6

                   General Public                                                    20
          OIG Investigation/Audit          3
               Regulated Industry                5
                     Anonymous                                                  18
                           Media     1

                      Contractor     1

                                    Allegations resulting from Hotline calls: 36

                                                                         Total 82


       Disposition of Allegations — April 1, 2009, through September 30, 2009
                                         Total                                       82

                      Closed Administratively                 27

                Referred for OIG Investigation                24
       Referred to NRC Management and Staff                  21

                  Referred to External Agency        1

                       Pending Review Action             3
                   Correlated to Existing Case           5

                    Allegations Under Review         1




40 NRC OIG Semiannual Report to Congress
Status of Investigations
DOJ Acceptance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
DOJ Referrals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9
DOJ Pending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
DOJ Declinations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
NRC Administrative Actions:
	 Terminations and Resignations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
	 Suspensions and Demotions .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
	

Summary of Investigations
Classification of 		           Opened 	 Closed 	 Cases In
Investigations	     Carryover	 Cases	   Cases	 Progress

Conflict of Interest	                  1	                                       0	               1	             0
External Fraud	                        3	                                       5	               4	             4
False Statements 	                     1	                                       0	               1	             0
Misuse of Government Property	         1	                                       3	               2	             2
Employee Misconduct 	                 11	                                       7	               8	            10
Management Misconduct	                 4	                                       2	               4	             2
Mishandling of Technical Allegations	 10	                                       1	               4	             7
Whistleblower Reprisal	                2	                                       1	               0	             3
Proactive Initiatives 	                3	                                       0	               1	             2
Miscellaneous	                         0	                                       3	               0	             3
Technical Allegations	                 0	                                       3	               0	             3
Projects	                              7	                                       1	               1	             7
Management Implication Report	         0	                                       1	               0	             1
Event Inquiries	                       1	                                       1	               0	             2
			 Total Investigations	             44	                                      28	              26	            46




                                                                                             April 1, 2009 – September 30, 2009 41
               AUDIT LISTINGS
               Internal Program Audit and Special Evaluation Reports
               Date	         Title	                                               Audit Number
               09/30/2009 	 Inspector General’s Assessment of the Most 	          OIG-09-A-21
               	            Serious Management and Performance
               	            Challenges Facing NRC	
               09/30/2009	 Office of the Inspector General Information 	          OIG-09-A-20
               	           System Security Evaluation of Region I -
               	           King of Prussia, PA	
               09/30/2009	 Audit of NRC’s Material Control and Accounting 	 OIG-09-A-19
               	           Security Measures for Special Nuclear Materials
               	           at Fuel Cycle Facilities
               09/30/2009	 NRC Safety Culture and Climate Survey	                 OIG-09-A-18
               09/29/2009	 Audit of NRC’s Oversight of Construction at	           OIG- 09-A-17	
               	           Nuclear Facilities
               09/29/2009	 Audit of NRC’s Grant Management Program	               OIG-09-A-16
               09/28/2009	 Office of the Inspector General Information 	          OIG-09-A-15
               	           System Security Evaluation of Region III – Lisle, IL

               09/28/2009	 Office of the Inspector General Information System	 OIG-09-A-14
               	           Security Evaluation of Region IV – Arlington, TX

               09/28/2009	 Office of the Inspector General Information System	 OIG-09-A-13
               	           Security Evaluation of Region II – Atlanta, GA

               07/30/2009	 Audit of NRC’s Force-on-Force Inspection Program	 OIG-09-A-12

               07/22/2009	 Information System Security Evaluation of the	         OIG-09-A-11
               	           Technical Training Center – Chattanooga, TN

               05/11/2009	 Audit of the Regional Counsel Role in the 	            OIG-09-A-10
               	           Enforcement Process




42 NRC OIG Semiannual Report to Congress
Contract Audit Reports
OIG	          Contractor/	                    Questioned	    Unsupported
Issue Date	   Contract Number	                  Costs	          Costs

5/26/09	      Beckman and Associates
	             NRC-04-07-112	                      0	               0

04/08/09	     Engineering Mechanics Corp. of Columbus
	             NRC-04-02-074	                       0	              0
	             NRC-04-03-046	                       0	              0
	             NRC DR-04-07-072	                    0	              0
	




                                                        April 1, 2009 – September 30, 2009 43
 Audit Resolution Activities
TABLE I
OIG Reports Containing Questioned Costs23
April 1, 2009, through September 30, 2009
		                                                                                           Questioned	         Unsupported
	        Number of	                                                                             Costs	              Costs
Reports	  Reports	                                                                            (Dollars)	          (Dollars)

A.	       For which no management decision
          had been made by the commencement
          of the reporting period	                                         0	                        0	               0

B.	       Which were issued during the
          reporting period	                                                0	                        0	               0

	         Subtotal (A + B)	                                                0	                        0	               0

C.	       For which a management decision was
          made during the reporting period:

	         (i) 	 dollar value of disallowed costs	                          0	                        0	               0

	         (ii)	 dollar value of costs not disallowed	                      0	                        0	               0

D.	       For which no management decision
          had been made by the end of the
          reporting period	                                                0	                        0	               0

E.	       For which no management decision was
          made within 6 months of issuance	                                0	                        0	               0


23
      uestioned costs are costs that are questioned by the OIG because of an alleged violation of a provision
     Q
     of a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing
     the expenditure of funds; a finding that, at the time of the audit, such costs are not supported by
     adequate documentation; or a finding that the expenditure of funds for the intended purpose is unnec-
     essary or unreasonable.




44 NRC OIG Semiannual Report to Congress
TABLE II
OIG Reports Issued with Recommendations That Funds Be Put
to Better Use24
	                                                                        Number of	             Dollar Value
Reports	                                                                  Reports	               of Funds

A.	       For which no management decision	 0	 0
          had been made by the commencement
          of the reporting period			

B.	       Which were issued during the 	 0	                                                            0
          reporting period		

C.	       For which a management decision was	
          made during the reporting period:		

	             (i) 	 dollar value of recommendations	                           0	                      0
          	         that were agreed to by management

	         (ii) 	dollar value of recommendations 	                              0	                      0
          	 that were not agreed to by management

D.	      For which no management decision had	                                 0	                      0
         been made by the end of the reporting
         period

E.	      For which no management decision was	 0	 0
         made within 6 months of issuance			
         	

24
    A “recommendation that funds be put to better use” is a recommendation by the OIG that funds could
      be used more efficiently if NRC management took actions to implement and complete the recom-
      mendation, including: reductions in outlays; deobligation of funds from programs or operations; with-
      drawal of interest subsidy costs on loans or loan guarantees, insurance, or bonds; costs not incurred
      by implementing recommended improvements related to the operations of NRC, a contractor, or a
      grantee; avoidance of unnecessary expenditures noted in preaward reviews of contract or grant agree-
      ments; or any other savings which are specifically identified.




                                                                                  April 1, 2009 – September 30, 2009 45
TABLE III
Significant Recommendations Described in Previous Semiannual
Reports on Which Corrective Action Has Not Been Completed
Date	       Report Title	                                                  Number

05/26/03	   Audit of NRC’s Regulatory Oversight of Special 	             OIG-03-A-15
	           Nuclear Materials

	           Recommendation 1: Conduct periodic inspections to
	           verify that material licensees comply with material
	           control and accountability (MC&A) requirements,
	           including, but not limited to, visual inspections of
	           licensees’ special nuclear material (SNM) inventories
	           and validation of reported information.		

09/26/06	   Evaluation of NRC’s Use of Probabilistic Risk Assessment 	   OIG-06-A-24
	           in Regulating the Commercial Nuclear Power Industry

	           Recommendation 3: Conduct a full verification and
	           validation of SAPHIRE version 7.2 and GEM.

09/06/07	   Audit of NRC’s License Renewal Program 	                     OIG-07-A-15

	           Recommendation 4: Establish requirements and
	           management controls to standardize the conduct and
	           depth of license renewal operating experience reviews.

	           Recommendation 7: Establish a review process to
	           determine whether or not Interim Staff Guidance meets
	           the provisions of 10 CFR 54.37(b), and document accordingly.




46 NRC OIG Semiannual Report to Congress
Abbreviations And Acronyms
ADAMS		 Agencywide Documents Access and Management System
CFR		 Code of Federal Regulations
CIP		 Construction Inspection Program
DBT		 Design Basis Threat
DFS		 Division of Facilities and Security (NRC)
DIRS		 Division of Inspection and Regional Support (NRC)
DOE		 U.S. Department of Energy
EDO		 Executive Director for Operations
ERLLTF		 Effectiveness Review Lessons Learned Task Force
FISMA		 Federal Information Security Management Act
FY		 Fiscal Year
IAM		 Issue Area Monitor
IG		 Inspector General
MC&A		 Material Control and Accounting
MD		 Management Directive
NEI		 Nuclear Energy Institute
NMSS		 Office of Nuclear Material Safety and Safeguards (NRC)
NRC 		 U.S. Nuclear Regulatory Commission
NRO		 Office of New Reactors (NRC)
NRR		 Office of Nuclear Reactor Regulation (NRC)
NSIR		 Office of Nuclear Security and Incident Response (NRC)
OIG 		 Office of the Inspector General (NRC)
OPM		 Office of Personnel Management
PMA		 Property Manager Authority
ROP		 Reactor Oversight Process
RIS		 regulatory issue summary
SF		 Standard Form
SNM		 special nuclear material
TO		 task order
TTC		 Technical Training Center (NRC)



                                                   April 1, 2009 – September 30, 2009 47
Reporting Requirements
               The Inspector General Act of 1978, as amended, specifies reporting require-
               ments for semiannual reports. This index cross-references those requirements
               to the applicable pages where they are fulfilled in this report.


               Citation	               Reporting Requirements	                                                  Page

               Section 4(a)(2)	        Review of Legislation and Regulations . ...............................6-7

               Section 5(a)(1)	        Significant Problems, Abuses, and Deficiencies . .....10-25, 33-39

               Section 5(a)(2) 	 Recommendations for Corrective Action ........................10-25

               Section 5(a)(3) 	 Prior Significant Recommendations
               	                 Not Yet Completed . ................................................................. 45

               Section 5(a)(4) 	 Matters Referred to Prosecutive Authorities ........................ 41

               Section 5(a)(5) 	 Information or Assistance Refused . ..................................none

               Section 5(a)(6) 	 Listing of Audit Reports .......................................................... 42

               Section 5(a)(7) 	 Summary of Significant Reports ...........................10-25, 33-39

               Section 5(a)(8) 	 Audit Reports — Questioned Costs ..................................... 44

               Section 5(a)(9) 	 Audit Reports — Funds Put to Better Use ............................ 45

               Section 5(a)(10) 	 Audit Reports Issued Before Commencement
               	                  of the Reporting Period for Which No
               	                  Management Decision Has Been Made ................................ 46

               Section 5(a)(11) 	 Significant Revised Management Decisions .................... None

               Section 5(a)(12) 	 Significant Management Decisions With
               	                  Which OIG Disagreed ........................................................ None




48 NRC OIG Semiannual Report to Congress
OIG VISION                                                               NRC OIG’s STRATEGIC GOALS
“We are agents of positive change striving for continuous                1. S
                                                                             trengthen NRC’s efforts to protect public health and safety
improvement in our agency’s management and program operations.”             and the environment.
                                                                         2. E nhance NRC’s efforts to increase security in response to an
                                                                            evolving threat environment.
NRC-OIG MISSION
                                                                         3. I ncrease the economy, efficiency, and effectiveness with
NRC-OIG’s mission is to (1) independently and objectively conduct           which NRC manages and exercises stewardship over its
and supervise audits and investigations relating to NRC’s programs and      resources.
operations; (2) prevent and detect fraud, waste, and abuse,
and (3) promote economy, efficiency, and effectiveness in NRC’s
programs and operations.




Cover photos (clockwise from top left): Reactor fuel assembly unit,
Prairie Island nuclear power plant near Red Wing, MN (photo courtesy
of Nuclear Management Co.), nuclear turbine, and control room at a
nuclear power plant.
               REGU
           EAR     LA
         CL          T




   NU




                        OR
STATES




                          YC
                         OMMI S
 ED




                         SI
    IT




                         O
                    N
         UN




The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility
employees, contractors and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be
reported. We do not attempt to identify persons contacting the Hotline.

What should be reported:
• Contract and Procurement Irregularities        • Abuse of Authority
• Conflicts of Interest                          • Misuse of Government Credit Card
• Theft and Misuse of Property                   • Time and Attendance Abuse
• Travel Fraud                                   • Misuse of Information Technology Resources
• Misconduct                                     • Program Mismanagement


Ways to Contact the OIG
                                  Call:
                                  OIG Hotline
                                  1-800-233-3497
                                  TDD: 1-800-270-2787
                                  7:00 a.m. – 4:00 p.m. (EST)
                                  After hours, please leave a message


                                  Submit:
                                  On-Line Form
                                  www.nrc.gov
                                  Click on Inspector General
                                  Click on OIG Hotline
                                                                                                Semiannual Report to Congress
                                                                                                April 1, 2009-September 30, 2009
                                  Write:
                                  U.S. Nuclear Regulatory Commission
                                  Office of the Inspector General
                                  Hotline Program, MS O5 E13
                                  11555 Rockville Pike
                                  Rockville, MD 20852-2738


NUREG-1415, Vol. 22, No. 1
September 2009
